____________
No.

In The
SUPREME COURT OF THE UNITED STATES
____________________
William A. Salzwedel, on behalf of himself, and
all others similarly situated,

Petitioner
v.
State of California, et al.

Respondents
______________________
On Petition For Writ of Certiorari
To The United States Court of Appeals
For the Ninth Circuit
_______________________
PETITION FOR WRIT OF CERTIORARI
_______________________
William A. Salzwedel
Attorney At Law
Pro Se
144 Yucca Ln.
Thousand Oaks, California 91362
Telephone: (805) 497-4511

QUESTIONS PRESENTED FOR REVIEW
1.
Does an attorney in the practice of representing
proposed adult conservatees/wards have direct
standing, associational standing, or traditional thirdparty standing under Title II of the Americans With
Disabilities Act, §504 of the Rehabilitation Act, or 42
U.S.C. §§1983, 1985 to challenge a state’s adult
conservatorship/ guardianship practices, laws,
facially, or as applied, as being in violation of these
statutes, or the due process or equal protection
clauses of the 14th Amendment to the United States
Constitution, when the attorney alleges an
independent injury causally related to the alleged
denial of federally required services to the attorney’s
client under these statutes?
2.
Does the Rooker-Feldman doctrine prevent
litigants from seeking a federal remedy for alleged
violations of their constitutional rights where the
violator is alleged to have so far succeeded in
corrupting the state judicial process as to obtain a
favorable state judgment against that federal litigant?
3.
Does the Rooker-Feldman jurisdictional bar not
apply to a claim, it would otherwise apply to, when
the federal claimant had no reasonable opportunity to
raise the claim in relevant state court proceedings?

i

LIST OF ALL PARTIES TO THE PROCEEDING
WILLIAM A. SALZWEDEL, on behalf of himself, and
all others adversely affected by similar state action;
STATE OF CALIFORNIA, on behalf of itself and all
other states;
JUDICIAL BRANCH OF CALIFORNIA, on behalf of
itself and all other similarly situated court systems of
other states;
HONORABLE TANI G. CANTIL-SAKAUYE, CHIEF
JUSTICE OF CALIFORNIA, on behalf of herself in
her official capacity and all other similarly situated
officials within other states;
JUDICIAL COUNCIL OF CALIFORNIA, on behalf of
itself and all other similarly situated bodies within
other states;
MARTIN HOSHINO, ADMINISTRATIVE
DIRECTOR OF THE JUDICIAL COUNCIL OF
CALIFORNIA, on behalf of himself in his official
capacity and all other similarly situated officials
within other states;
SUPERIOR COURT OF CALIFORNIA FOR THE
COUNTY OF VENTURA, on behalf of itself and all
other Superior Courts of California and all other
courts that adjudicate or supervise conservatorships
or guardianships of adults in other states;
HONORABLE JUDGE GLEN M. REISER, on behalf
of himself in his official capacities and all other judges
in California that adjudicate or supervise
conservatorships of adults and all other judges that
adjudicate or supervise conservatorships or
guardianships of adults in other states;
OFFICE OF THE PUBLIC DEFENDER FOR THE
COUNTY OF VENTURA, STATE OF CALIFORNIA,

ii

on behalf of itself and all other entities similarly
situated;
COUNTY OF VENTURA, on behalf of itself and all
other entities similarly situated;
MARY WEBSTER (AKA MARY C. SHEA), in both her
individual capacity and official capacity and all others
similarly situated;
ANGELIQUE FRIEND, CONSERVATOR OF THE
PERSON AND ESTATE OF LESTER G. MOORE and
all others similarly situated;
BENTON, ORR DUVAL & BUCKINGHAM and all
others similarly situated;
THOMAS E. OLSON and all others similarly
situated;
JOHN BARLOW and all others similarly situated;
POPPY HELGREN and all others similarly situated;
CALIFORNIA COURT OF APPEAL FOR THE 2ND
APPELLATE DISTRICT, DIVISION SIX and all
others similarly situated
There are no corporations involved in this case other
than the governmental entities listed above.
There are no other proceedings “directly related” to
this case as defined in U.S. Supreme Court Rule
14(b)(iii).

iii

TABLE OF CONTENTS
Questions Presented For Review………………………..i
List of All Parties To The Proceeding………………….ii
Table of Contents…………………………………………iv
Table of Cited Authorities……………………………....vi
Citations Of The Reports Of The Opinions
And Orders Entered In The Case……………………...ix
Statement of Jurisdiction………………………………..x
Constitutional Provisions, Statutes and
Regulations………………………………………………..xi
Statement of the Case…………………………………….1
Reasons For Granting The Petition…………………….9
I. THERE IS A CIRCUIT SPLIT AS TO
THE SCOPE OF ASSOCIATIONAL
STANDING UNDER THE ADA AND
REHABILITATION ACT (“RA”)………………..9
II. IT IS IMPORTANT FOR ATTORNEYS
OF PROPOSED CONSERVATEES/WARDS
TO HAVE STANDING TO CHALLENGE A
STATE’S ADULT CONSERVATORSHOP/
GUARDIANSHIP REGIME IN FEDERAL
COURT WHEN IT IS IN VIOLATION OF
CIVIL RIGHTS LAWS………………………….11

iv

III. STANDING BY THIRD PARTIES
LITIGATING FOR THE RIGHTS OF
PERSONS WITH DISABILITIES UNDER
42 U.S.C. §12203(b) AND SIMILAR
STATUTES IS A MATTER OF FIRST
IMPRESSION FOR THE FEDERAL
COURTS EXCEPT FOR A RETALIATION
CLAIM……………………………………………..12
IV. THERE IS A CIRCUIT SPLIT AS TO
WHETHER THE ROOKER-FELDMAN
JURISDICTIONAL BAR PREVENTS
LITIGANTS FROM SEEKING A FEDERAL
REMEDY FOR ALLEGED VIOLATIONS OF
THEIR CONSTITUTIONAL RIGHTS
WHERE THE VIOLATOR IS ALLEGED TO
HAVE SO FAR SUCCEEDED IN
CORRUPTING THE STATE JUDICIAL
PROCESS TO OBTAIN A FAVORABLE
STATE JUDGMENT AGAINST THAT
FEDERAL LITIGANT………………………….13
V.

THERE IS A CIRCUIT SPLIT ON
WHETHER A “REASONABLE
OPPORTUNITY” EXCEPTION APPLIES
TO THE ROOKER-FELDMAN
JURISDICTIONAL BAR……………………...27

ADDENDUM
Table of Contents of Addendum
9th Circuit Memorandum Decision
9th Circuit Order Denying Rehearing
District Court Order Reviewed by 9th Cir
Conservatorship of Moore 240 Cal.App.4th 1101 (2015)
Constitutional, Statutory and Regulatory Provisions
v

TABLE OF CITED AUTHORITIES
United States Constitutional Provisions
Article III to the United States Constitution….…5-6, 8
14th Amendment to the U.S.
Constitution…………………..………………….…1, 8, 11
United States Statutes
29 U.S.C. §794
(§504 of the Rehabilitation Act of 1973)……......1, 8, 11
29 U.S.C. §794a (a)(2)
(§504 of the Rehabilitation Act of 1973)……......1, 7, 11
42 U.S.C. §1983……………………………….……1, 8, 18
42 U.S.C. §1985…………………………………………1, 8
42 U.S.C. §12132 (Title II of the ADA)…….……1, 8, 11
42 U.S.C. §12133 (Title II of the ADA)……….…1, 7, 11
42 U.S.C. §12203…………………………….……7, 11, 12
42 U.S.C. §2000d…………………………………..………7
Federal Regulations
28 CFR 35.130(d)…………………………………………..1
U.S. Supreme Court Cases
Barnes v. Gorman,
536 U.S. 181, 184-185 (2002)…………………..............7

Caplin & Drysdale, Chartered
v. United States, 491 U.S. 617,

619-621, 623-624 fn. 3 (1989)……………………………6
Carey v. Piphus, 435 U.S. 247 (1978)…………………13

District of Columbia Court of Appeals v.
Feldman, 460 U.S. 462 (1983)…………………14, 17, 24
Exxon Mobil Corp. v. Saudi Basic
Industries, 544 U.S. 280 (2005)…….…14, 21-23, 25-26
Kowalski v. Tesmer,
543 U.S. 125 (2004)………………………………………..6
vi

Lance v. Dennis, 546 U.S. 459 (2006)…………………..8
Olmstead v. L.C., 527 U.S. 581 (1999)…………………1
Pennzoil Co. v. Texaco, Inc., 481 U.S. 1 (1987)….26-27
Rooker v. Fidelity Trust Co.,

263 U.S. 413 (1923)………………………………………14
U.S. Circuit Court Cases

Barker v. Riverside Office of Educ.,

584 F.3d 821, 825-828 (9th Cir. 2009)………...…6, 7, 12
Carmona v. Carmona, 603 F.3d 1041
(9th Cir. 2010)…………………………………………20-21
Cooper v. Ramos, 704 F.3d 772
(9th Cir. 2012)…………………………………21-22, 25-26

Dodson v. University of Ark. For Med.
Sciences, 601 F.3d 750 (8th Cir. 2010)………..……….27
Doe & Associates Law Offices v.
Napolitano, 252 F.3d 1026 (9th Cir. 2001)………..26-27
Durand v. Fairview Health Services,

902 F.3d 836 (8th Cir. 2018)………………………….9-11
Finnegan v. Munoz, 698 Fed.Appx 526
(9th Cir. 2017)………………………………………....18-20

Great Western Mining & Mineral Co.
v. Fox Rothschild LLP,

615 F.3d 159 (3d Cir. 2010)………………….…13-16, 18

Henrichs v. Valley View Development,

474 F.3d 609 (9th Cir. 2007)……………….………..22-23
Hoblock v. Albany County Board of Elections,
422 F.3d 77 (2d Cir. 2005)………………………………24
Kougasian v. TMSL, Inc., 359 F.3d 1136
(9th Cir. 2004)……………………….……………20, 22, 23

Loeffler v. Staten Island University
Hospital, 582 F.3d 268 (2d Cir. 2009)………………9-10
Loubser v. Thacker, 440 F.3d 439

(7th Cir. 2005)……………………………….……13, 16, 18

Land and Bay Gauging, LLC v.
vii

Shor, 623 Fed.Appx. 674 (5th Cir. 2015)…13, 16-18, 20
McCullum ex rel. DF & TF v.
Orlando Reg’l Healthcare Sys., Inc.,

768 F.3d 1135 (11th Cir. 2014)……………………...10-11
M.R. Dreyfus, 697 F.3d 706 (9th Cir. 2012)……………1
Nesses v. Shepard, 68 F.3d 1003
(7th Cir. 1995)…………………………………………13-16
Noel v. Hall, 341 F.3d 1148 (9th Cir. 2003)…….…21-23
Read v. Klein, 1 Fed.Appx. 866
(10th Cir. 2001)………………………….……………13, 15

Target Media Partners v. Specialty
Marketing Corporation, 881 F.3d 1279

(11th Cir. 2018)……………………………..…………….27
Thomas v. Zelon, 715 Fed.Appx. 780
(9th Cir. 2018)…………………………………………19-21
Truong v. Bank of America, 717 F.3d 377
(5th Cir. 2013)……………………………………….…….17
U.S. District Court Cases

Finnegan v. Munoz, 2015 WL 3937590;

2015 U.S. Dist. LEXIS 83530
SACV 15-0420-DSF (RNB) (C.D. Cal. 2015)……..18-19
Long v. Cross-Reporting Service,
2008 WL 822124, No. 01-1111-cv-W-HFS
(W.D. Missouri 2008)…………………………………....15
Simon v. Taylor, 981 F.Supp.2d 1020
(D. New Mexico 2013)…………………………………...15
Thomas v. Zelon, 2017 WL 6017343………………19-20
State Court Cases

Board of Regents v. Davis, 14 Cal.3d 33 (1975)………2
Conservatorship of Moore,

240 Cal.App.4th 1101
(2d Dist., Div. III 2015)………...................................4-8

viii

CITATIONS OF THE REPORTS OF THE OPINIONS
AND ORDERS ENTERED IN THE CASE

Salzwedel v. State of California , Order Granting

Motions To Dismiss, April 4, 2018, U.S. District Court
For the Central District of California, No. 2:17-cv03156
AB
(RAOx),
Dkt.
Entry:
69.
2018 WL 5264159

Salzwedel v. State of California , Memorandum

Filed March 19, 2019, United States Court of
Appeals For the Ninth Circuit, No. 18-55574, Dkt.
Entry: 48-1. 765 Fed.Appx. 165 (Mem); 2019 U.S.
App. LEXIS 8118.

Salzwedel

v.
State
of
California ,
Order
Denying Petition For En Banc And Panel
Rehearing, Filed May 24, 2019, United States Court
of Appeals For the Ninth Circuit, No. 18-55574, Dkt.
Entry:50.
2019 U.S. App. LEXIS 15637.

Salzwedel v. State of California , Mandate Filed

June 3 2019 by the United States Court of Appeals
For the Ninth Circuit, No. 18-55574, Dkt. Entry: 51.

ix

STATEMENT OF JURISDICTION
Petitioner seeks review of the Memorandum Decision
of the United States Court of Appeals For the Ninth
Circuit Filed on March 19, 2019 affirming the U.S.
District Court’s Dismissal of Petitioner’s Second
Amended Complaint.
Petitioner’s timely Petition For En Banc And Panel
Rehearing was denied by the United States Court of
Appeals For the Ninth Circuit on May 24, 2019.
Petitioner has filed this Petition for Certiorari by
mailing it to the United States Supreme Court with
the United States Postal Service on August 22, 2019,
(postmarked August 22, 2019), 90 days after the
above denial of the Petition For Rehearing.
On August 27, 2019, the Office of the Clerk for the
Supreme Court of the United States returned the
Petition to Petitioner for correction so that it complies
in all respects with the Rules of the Supreme Court,
in particular, the required font size for the appendix.
The Office of the Clerk instructed Petitioner to return
the corrected Petition to the Supreme Court and
submit it to the Court within 60 days from August 27,
2019, which Petitioner is doing.

The U.S. Supreme Court has jurisdiction, pursuant to
28 U.S.C. §1254(1), to review on a writ of certiorari
the above Memorandum Decision of the United States
Court of Appeals For the Ninth Circuit filed on March
19, 2019.
x

CONSTITUTIONAL PROVISIONS, STATUTES,
AND REGULATIONS
1st AMENDMENT TO THE
UNITED STATES CONSTITUTION,
FREE SPEECH CLAUSE
14th AMENDMENT TO THE
UNITED STATES CONSTITUTION,
SECTIONS 1 & 5
42 U.S.C. §1983 CIVIL ACTION FOR
DEPRIVATION OF RIGHTS
42 U.S.C. §1985 CONSPIRACY TO
INTERFERE WITH CIVIL RIGHTS
Part (2) Obstructing justice;
intimidating party, witness, or juror
42 U.S.C. §1985
CONSPIRACY TO INTERFERE
WITH CIVIL RIGHTS
Part (3) Depriving persons
of rights or privileges
§504 OF THE REHABILITATION ACT OF 1973
29 U.S.C. §794(a)(b)(1)(4)
Nondiscrimination Under
Federal Grants And Programs
§504 OF THE REHABILITATION ACT OF 1973
AMENDED 1978
29 U.S.C. §794a (a)(2) Remedies
AMERICANS WITH DISABILITIES ACT,
xi

TITLE II
42 U.S.C. §12132
Discrimination
AMERICANS WITH DISABILITIES ACT,
TITLE II
42 U.S.C. §12133
Enforcement
AMERICANS WITH DISABILITIES ACT.
Prohibition of Retaliation and Acts That Coerce,
Intimidate, Threaten, Or Interfere With
42 U.S.C. §12203
§504 OF THE REHABILITATION ACT OF 1973
AMENDED 1978
28 CFR §42.107(e)
(also 34 CFR §100.7(e))
Intimidatory or retaliatory acts prohibited
(Originally In Implementation of Title VI
of the Civil Rights Act of 1964; Subsequently
Applied to §504 of the Rehabilitation Act)
§504 OF THE REHABILITATION ACT OF 1973
28 CFR §42.503(b)(1)(2)(3)(5)(6)(d)(g)
Discrimination Prohibited
AMERICANS WITH DISABILITIES ACT,
TITLE II
28 CFR §35.130
General prohibitions against discrimination
AMERICANS WITH DISABILITIES ACT,
TITLE II
28 CFR §35.134 Retaliation or coercion
xii

STATEMENT OF THE CASE
Petitioner’s U.S. District Court Complaint in
this case claims that California’s Adult
Conservatorship statute, like other states’ adult
guardianship laws, are in violation of civil rights laws
for persons with mental disabilities, including Title II
of the Americans With Disabilities Act, (42 U.S.C.
§§12132, 12133) (“ADA”), The Rehabilitation Act of
1973 (29 U.S.C. §§794, 794a), 42 U.S.C. §1983, 1985,
and the due process and equal protection clauses of
the 14th Amendment to the United States
Constitution. In a nutshell, these adult
conservatorship and guardianship regimes fall short
of the requirements of the ADA and U.S. Constitution
because they never provide for any court ordered
supervised help for adult conservatees without
depriving the conservatees of their liberty to the same
extent as powers are granted to their respective
conservators. (See 9th Circuit Excerpts of Record,
TAB/DOC#43, Pages 70-73). As such the laws are in
violation of the integration mandate of Title II of the
Americans With Disabilities Act (28 CFR §35.130(d)),
which the U.S. Supreme Court addressed only one
time, in Olmstead v. L.C., 527 U.S. 581 (1999). There
is a violation of the integration mandate when the
state causes an unnecessary loss of that liberty
putting the conservatee at high risk of unjustified
isolation or institutionalization (also stigmatization,
etc.). M.R. v. Dreyfus, 697 F.3d 706, 720, 732-735 (9th
Cir. 2012) (relying on Olmstead v. L.C. to address
violation of the integration mandate in a different
context). The point is that, most often, adults with
mental disabilities who need court supervised help in
1

meeting their physical needs or managing their
finances, e.g., a guardian or conservator, do not also
need their freedom curtailed by the court. This should
come as no surprise, but amazingly, in the United
States, whenever court supervised help (i.e., guardian
or conservator) is appointed by a state court for an
adult with mental disabilities, the adult is always
stripped of rights to some degree in becoming a
ward/conservatee.1 In some other countries, such as
Sweden, this is not so.2
This is a flagrant violation of the due process
and equal protection of the United States Constitution
that has been tolerated way too long. It is an
inevitable wrongful cause of unjustified
institutionalization that makes it a violation of the
integration mandate of the ADA.
This was also not so in California between 1957
and 1979, with respect to appointments of
conservators for managing the financial affairs of
adults with mental disabilities. See Board of Regents
v. Davis, 14 Cal.3d 33 (1975).
In 1957, the California legislature created
conservatorships for persons who needed help
managing their affairs. The establishment of
conservatorship under these provisions did not
necessitate any loss of capacity by the conservatee.
Rather, the Court appointed and supervised agent
helped the conservatee manage his or her financial
resources without any concomitant loss of civil rights
by the conservatee. This was in furtherance of the
legislature’s goal at the time to entice more persons,
(See 9th Circuit Excerpts of Record, TAB/DOC#43, Pages 70-73).
See Joan L. O’Sullivan, Role of the Attorney For the Alleged
Incapacitated Person, XXXI Stetson Law Review Spring 2002
Page 721-722.
1
2

2

in need, to avail themselves of the protections
provided by conservatorship without the indignity of
losing their civil rights. Id.3
The California legislature then abolished
guardianship for adults in 1979, and revised the
Probate Conservatorship regime whereby a proposed
conservatee lost his or her civil rights to contract,
upon the court establishing the conservatorship,
absent special court order allowing the conservatee to
retain a right to contract. The legislative intention of
this statutory change was to simplify administration
of conservatorships of the estate and make it so that
practically all conservatorships of the estate involve a
total loss of the conservatee’s right to contract.4
The California legislature enacted Probate
Code Section 1872 in 1979, which today, states:
“Except as otherwise provided in this article, the
appointment of a conservator of the estate is an
adjudication that the conservatee lacks the legal
capacity to enter into or make any transaction that
binds or obligates the conservatorship estate.”5
Had California kept the above conservatorship
law that it had between 1957 and 1979, the acrimony
and financial cost of conservatorship litigation would
be drastically reduced in almost all cases today, and,
in many, virtually eliminated. The aspect of proposed
adult conservatorship/guardianship that is fought
over acrimoniously by proposed conservatees/wards,
often to severe financial detriment and familial
discord, is the adjudication of their incapacity and loss
of their liberty and privacy, which usually results in
See Petitioner’s First Amended Complaint Page 85.
See Petitioner’s First Amended Complaint Page 86.
5 See Petitioner’s First Amended Complaint Page 86.
3

4

3

unjustified isolation, stigmatization, and unnecessary
institutionalization. A modification of the state
program to remedy this, proposed by Plaintiff, is what
California already demonstrated, from 1957 to 1979,
it can do without a fundamental alteration to the
program6.
Understandably, proposed adult
conservatees/wards often hire an attorney to help
them contest the proposed conservatorship/
guardianship so as to preserve their civil rights. This
is what happened in conservatorship litigation
involving Petitioner described in Conservatorship of
Moore, 240 Cal.App.4th 1101 (2015) that the U.S.
District Court in the present case references on Page
1 of its attached Order Granting Motions to Dismiss.
When the proposed conservatee (or ward) loses the
litigation, the question inevitably arises whether the
attorney’s fees incurred in fighting the proposed
conservatorship/guardianship was excessive, and also
whether the mentally disabled client was competent
to pay the attorney, etc.
This serves as a severe threat to Plaintiff, and
other attorneys and trustees for proposed
conservatee’s/wards of being charged, surcharged,
accused, or sued for financial or physical abuse for
simply fulfilling their duty of loyalty to their
clients/settlors in helping them oppose a proposed
conservatorship/guardianship. Were there the
prospect of conservatorship/guardianship without the
concomitant loss of the conservatee’s/ward’s freedoms,
this threat would be virtually eliminated, or at least
substantially reduced. The surcharge described in
Conservatorship of Moore, 240 Cal.App.4th 1101
6

See Appellant’s Opening Brief, DktEntry 9-1, Page 39.

4

(2015) would never have happened, simply because
litigation in opposition to a conservatorship without
the loss of fundamental rights, would have been
unnecessary in the circumstances of Lester Moore.
However, for the prospective relief sought in the First
Amended Complaint, the U.S. District Court does not
have to decide the proximate causation of the
surcharge in such California case.7 Herein lies the
Article III injury and threat of injury that gives
Petitioner the constitutional standing to make the
above claims. As described above, the injury is
redressable by the U.S. District Court.
Plaintiff is a California attorney with many
elderly clients practicing trusts, estates, and
conservatorship law in Ventura County, California.
Plaintiff is representing adult proposed conservatees
in the defense of their fundamental rights before the
Superior Court of California for the County Ventura.
As such, he is threatened with injury as a result of the
putatively unconstitutional California statutes, and
continuing illegal policies, practices, and conduct of
defendants described throughout the First Amended
Complaint.8 Furthermore, the surcharge described in
Conservatorship of Moore, 240 Cal.App.4th 1101 was
proximately caused by the above violation of the
integration mandate, or at least enough of it to
constitute Article III injury to Petitioner. But even
were one to ascribe most, or even all of the surcharge
to a proximate cause other than the violation of the
7

See Appellant’s Opening Brief, DktEntry 9-1, Pages 39-40.

First Amended Complaint Page 7, lines 17-23; Pages 11-12;
Page 15, lines 8-20; Page 60, lines 1-10, Page 217, lines 22-28;
Page 218, lines 1-7; Page 221, lines 12-18; Page 223, lines 13-27;
Page 227, lines 12-18.
8

5

integration mandate, there is still enough Article III
injury to Petitioner from the contentiousness
proceedings described in Conservatorship of Moore,
240 Cal.App.4th 1101 to give him constitutional
standing to make these claims now, besides the threat
of future injury on account of California’s violation of
the integration mandate.
Third party prudential standing has two
elements besides the Article III minimum: that “. .
.the party asserting the right has a ‘close’ relationship
with the person who possesses the right [citation] . .
.and that there is a ‘hindrance’ to the possessor’s
ability to protect his own interests.” Kowalski v.
Tesmer, 543 U.S. 125, 130 (2004). Petitioner has met
both of these requirements. Conservatees and
proposed conservatees are obviously hindered in their
ability to protect their own interests. And Petitioner
as their attorney has a close relationship with them.
See Caplin & Drysdale, Chartered v. United States,
491 U.S. 617, 619-621, 623-624 fn. 3 (1989).
But Congress has abrogated these prudential
restraints on third party standing for claims under
Title II of the ADA, §504 of the Rehabilitation Act,
and their respective regulations, providing standing
to non-disabled persons, under these provisions, as
broadly as permitted by Article III of the U.S.
Constitution. Barker v. Riverside Office of Educ., 584
F.3d 821, 825-828 (9th Cir. 2009). Therefore, to having
standing, Petitioner need not show that conservatees
or proposed conservatees are hindered in their ability
to protect their own interests, nor that Petitioner has
a “close” relationship with any of them.
Petitioner has “associational standing” under
these statutory and regulatory provisions based on his
association with Lester Moore in Conservatorship of
6

Moore, and association with other of Petitioner’s
clients who are threatened with injury due to
California’s violation of the above described
integration mandate.
Petitioner also has standing based on the
following statutory provision of the ADA9 and:

“It shall be unlawful to coerce,
intimidate, threaten, or interfere with any
individual . . .on account of his or her having
aided or encouraged any other individual
in the exercise or enjoyment of, any right
granted or protected by this chapter.
42 U.S.C. §12203(b). There is a constant threat of
collision by government actors’ exercise of parens
patriae authority or hubris in conservatorship/
guardianship proceedings with proposed
conservatees’/ wards’ due process and equal protection
rights, especially liberty. Inevitably, for attorneys
such as Appellant, the zealous (and expensive)
defense of the client’s due process and equal
protection rights comes into conflict with that parens
patriae position of the government actor whereby the
government actor violates the ADA’s prohibition of
“interference” with the protected activity. 42 U.S.C.
§12203(a)(b), pursuant to 42 U.S.C. §12203(c), 42
U.S.C. §12133, 29 U.S.C. §794a(a)(2), and 42 U.S.C.
§2000d et seq. Barnes v. Gorman, 536 U.S. 181, 184185 (2002). This provides direct standing to attorneys
for proposed conservatees who oppose conservatorship
to challenge substantive and procedural aspects of
The Rehabilitation Act has similar provisions through its implementing
regulations, as described in Barker v. Riverside Office of Educ., 584 F.3d
821, 825-828.

9

7

conservatorship law, facially, and as applied, that
violate the conservatee’s due process and equal
protection rights under the ADA, Rehabilitation Act,
and the 14th Amendment to the United States
Constitution (42 U.S.C. §§1983, 1985).
When the state court and parties to a
conservatorship/ guardianship proceeding injure the
proposed conservatee/ ward and its advocate in the
proceeding, whether that advocate is an attorney or
trustee, there are arises the issue whether the
Rooker-Feldman jurisdictional bar applies to deny any
relief. The 9th Circuit in this case was presented with
this issue. As to Petitioner, while he was and is in
privity with his clients, as in the Conservatorship of
Moore, the U.S. Supreme Court has established that
Rooker-Feldman does not apply to Petitioner and
others like him for being in privity with his client/
settlor, the state court loser. Lance v. Dennis, 546
U.S. 459, 466-467 (2006). The issue is more
complicated when the state court has made a ruling
specifically against the advocate, as in
Conservatorship of Moore, 240 Cal.App.4th 1101, and
the advocate (Petitioner) claims to be injured by
related state court actions, and claims Article III
standing, at least in part on such injury.10 However,
in the present case, Petitioner does not seek to have
the federal court undo any judgment in
Conservatorship of Moore. For instance, Petitioner
does not claim any damages against a party in whose
favor the judgment was rendered in Conservatorship
of Moore (the Successor Trustee of the Moore Family

See Petitioner’s Excerpts of Record before the 9th Circuit,
TAB/DOC #43, Pages 111-215.
10

8

Trust).11 Rather, the damages are sought against the
State of California and other defendants. Moreover,
the injury is proximately caused by the State of
California’s violation of the integration mandate of
the ADA and Rehabilitation Act.12
REASONS FOR GRANTING THE PETITION
I.
THERE IS A CIRCUIT SPLIT AS TO THE
SCOPE OF ASSOCIATIONAL STANDING UNDER
THE ADA AND REHABILITATION ACT (“RA”).
Last year, Durand v. Fairview Health Services,
identified this split between the Second and Eleventh
Circuits on the issue. 902 F.3d 836, 844 (8th Cir.
2018):
“In Loeffler, the Second Circuit
determined under the ADA and RA, ‘nondisabled parties bringing associational
discrimination claims need only prove an
independent injury causally related to the
denial of federally required services to the
disabled persons with whom the non-disabled
plaintiffs are associated.’ 582 F.3d at 279.
The majority in Loeffler concluded that,
because a hospital did not provide federallySee Petitioner’s Excerpts of Records before the 9th Circuit,
TAB/DOC #43, Page 219, lines 15-28, Page 220, lines 1-4, Page
225, lines 15-28, Page 226, lines 1-4).
12
See Petitioner’s Excerpts of Record before the 9th Circuit,
TAB/DOC #43, Pages 88-89, 97-98.
11

9

required services to a deaf patient, and
because his two minor and hearing disabled
children were required to act as on-call
interpreters for their father, forcing the kids
to miss school and be “involuntary[il]y
expos[ed] to their father’s suffering. Id. But
see id. at 287 (Jacobs, C.J., dissenting)
(noting that because Congress intended the
standard under the ADA and RA to require
non-disabled individuals to be excluded or
denied services because of their association,
and the non-disabled children had not been
excluded from or denied services based on
their association with their deaf father, the
children did not have associational standing
under either statute).
“In McCullum, the Eleventh Circuit held ‘
a non-disabled individual has standing to
bring suit under the ADA [and RA] only if
she was personally discriminated against or
denied some benefit because of her association
with a disabled person.’ 768 F.3d at 1142. The
Eleventh Circuit cited Chief Judge Jacobs’
dissent in Loeffler and shared his concern at
the possibility that ‘non-disabled individuals
may seek relief under the RA and ADA for
injuries other than exclusion, denial of
benefits, or discrimination that they themselves
suffer.’ Id. at 1143-44. The court noted, ‘If that
contention were correct, it would mean that
Congress granted non-disabled persons more
rights under the ADA and RA than it granted
disabled persons, who can recover only if they
are personally excluded, denied benefits, or
10

discriminated against based on their disability.’

Id. Although the ADA and RA may not intend
to grant more rights to non-disabled
individuals, the statutes do grant different

rights to disabled and non-disabled individuals”

Durand, 902 F.3d at 844 (8th Cir. 2018). While

Petitioner would never be intended as a beneficiary of
California’s conservatorship statutory regime, his
injury is related to the denial of benefits to his clients.
This is enough under the 2d Circuit’s requirement for
Associational standing under the ADA and
Rehabilitation Act.
II.
IT IS IMPORTANT FOR ATTORNEYS OF
PROPOSED CONSERVATEES/WARDS TO HAVE
STANDING TO CHALLENGE A STATE’S ADULT
CONSERVATORSHOP/ GUARDIANSHIP REGIME
IN FEDERAL COURT WHEN IT IS IN VIOLATION
OF CIVIL RIGHTS LAWS.
It is exceptionally important for the federal
courts to be able to measure the compliance of
conservatorship and guardianship practices in the
states with the ADA, 42 U.S.C. §§12132, 12133,
12203, Rehabilitation Act, 29 U.S.C. §§794, 794a, and
the due process and equal protection clauses of the 14
Amendment to the United States Constitution.
Conservatees/wards and proposed conservatees/wards
are obviously hindered from litigating these issues
themselves on account of their mental disabilities. So
the standing of others to be able to raise these issues
in federal court is very important, but this has been
almost entirely overlooked by the federal courts. It is
an impermissible conflict of interest to leave such
11

standing to conservators/ guardians as the 9th Circuit
has done in this case.
In addition, the subject of “conspiracy” in this
case between a state judicial actor and parties to the
conservatorship proceeding to predetermine a
conservatorship proceeding and curtail or punish a
zealous (and very expensive) defense of the liberty of a
proposed conservatee with declining mental abilities
is hardly unusual. It is actually common, and it
should be taken up by the federal court since it
involves a federally protected activity, the defense of
the freedom of the mentally disabled.
III. STANDING BY THIRD PARTIES
LITIGATING FOR THE RIGHTS OF PERSONS
WITH DISABILITIES UNDER 42 U.S.C. §12203(b)
AND SIMILAR STATUTES IS A MATTER OF FIRST
IMPRESSION FOR THE FEDERAL COURTS
EXCEPT FOR A RETALIATION CLAIM.
The U.S. Supreme Court has not addressed the
standing of non-disabled third parties under the ADA
and Rehabilitiation Act to claim retaliation for
advocating for the rights of the disabled as in Barker
v. Riverside Office of Educ., 584 F.3d 821, 825-828 (9th
Cir. 2009) and the cases cited therein. Furthermore, it
is a matter of first impression for all federal courts as
to the standing of non-disabled third parties under
the ADA13 at 42 U.S.C. §12203(b) to claim
“interference”, short of retaliation, with their efforts
to advocate for the rights of the disabled.

And similar regulations under the Rehabilitation Act as
described in Barker, 584 F.3d at 825-828.
13

12

IV.
THERE IS A CIRCUIT SPLIT AS TO
WHETHER THE ROOKER-FELDMAN
JURISDICTIONAL BAR PREVENTS LITIGANTS
FROM SEEKING A FEDERAL REMEDY FOR
ALLEGED VIOLATIONS OF THEIR
CONSTITUTIONAL RIGHTS WHERE THE
VIOLATOR IS ALLEGED TO HAVE SO FAR
SUCCEEDED IN CORRUPTING THE STATE
JUDICIAL PROCESS TO OBTAIN A FAVORABLE
STATE JUDGMENT AGAINST THAT FEDERAL
LITIGANT.
On this issue the 9th Circuit is at odds with the
Seventh Circuit, Third Circuit, Fifth Circuit, and
Tenth Circuit: Nesses v. Shepard, 68 F.3d 1003, 10041006 (7th Cir. 1995); Loubser v. Thacker, 440 F.3d
439, 441-443 (7th Cir. 2005); Great Western Mining &
Mineral Co. v. Fox Rothschild LLP, 615 F.3d 159, 171173 (3d Cir. 2010); Land and Bay Gauging, LLC v.
Shor, 623 Fed.Appx. 674, 679-681 (5th Cir. 2015), and
Read v. Klein, 1 Fed.Appx. 866, 870 (10th Cir. 2001).
For instance, Great Western Mining & Mineral Co.
states:
“Regardless of the merits of the
state-court decisions, if Great Western could
prove the existence of a conspiracy to reach a
predetermined outcome in state court, it could
recover nominal damages for this due process
violation. Carey, 435 U.S. at 262-64, 266, 98
S.Ct. 1042. Great Western’s entitlement to
such damages could be assessed without any
analysis of the state-court judgments. To
recover for more than the alleged due process
13

violation, however, Great Western would have
to show that the adverse state-court decisions
were entered erroneously. See Nesses, 68 F.3d
at 1005. This is not the type of appellate
review of state-court decisions contemplated by
the Rooker-Feldman doctrine. In both Rooker
and Feldman, the plaintiffs sought to have the
state-court decisions undone or declared null
and void by the federal courts. See Rooker, 263
U.S. at 414, 44 S.Ct. 149; Feldman, 460 U.S. at
468-69, 472-73, 103 S.Ct. 1303. The relief
requested by the plaintiffs in the federal courts
would have required effectively overruling the
state-court judgments. This is not the case
here. Great Western may, “as part of [its] claim
for damages,” show “that the [constitutional]
violation caused the decision[s] to be adverse to
[it] and thus did [it] harm.” Nesses, 68 F.3d at
1005. A finding by the District Court that the
state-court decisions were erroneous and thus
injured Great Western would not result in
overruling the judgments of the Pennsylvania
courts. Pursuant to Exxon Mobil, a federal
plaintiff may not seek “review and rejection of
state-court judgments, 544 U.S. at 284, 125
S.Ct. 1517. Here, while Great Western’s claim
for damages may require review of state-court
judgments and even a conclusion that they
were erroneous, those judgments would not
have to be rejected or overruled for Great
Western to prevail. Accordingly, the review
and rejection requirement of the RookerFeldman doctrine is not met, and the District
Court properly exercised jurisdiction over Great
Western’s suit.
14

Great Western Mining & Mineral Co., 615 F.3d at

173. The Circuit split began when the Honorable
Richard Posner authored Nesses v. Shepard in 1995
from which the language of Petitioner’s Question
Presented is derived at 68 F.3d at 1005. In Nesses,
the doctrine of Rooker-Feldman did not apply because
although the Plaintiff “was in a sense attacking the
ruling by the state court,” by asserting that he lost in
state-court because “the lawyers and the judges
[engineered the plaintiff’s] defeat,” the plaintiff was
not seeking to undo a remedial order of some sort.” Id.
at 1005. For about six years, no other U.S. Circuit
Judges endorsed his reasoning on this issue. One
District Court Judge stated in 2008, “the Nesses
exception to Rooker-Feldman has been unmentioned
by judges in other Circuits, and I believe the Eighth
Circuit would apply Rooker-Feldman rather than
Nesses here.” Long v. Cross-Reporting Service, 2008
WL 822124 at 2, No. 01-1111-cv-W-HFS (W.D.
Missouri 2008).14 Actually in 2001 a federal circuit
finally endorsed Judge Posner on this issue in dicta,
although not in a published opinion: Read v. Klein, 1
Fed.Appx. 866, 870 (10th Cir. 2001) (See also Simon v.
Taylor, 981 F.Supp.2d 1020, 1051 (D. New Mexico
2013) (citing to Read v. Klein in stating that the 10th

“; The dissenter in Loubser, as a judge of the Seventh Circuit,
was bound by Nesses, but was troubled that it “could come to
consume the Rooker-Feldman rule’. 440 F.3d at 444. Judge
Fairchild, who was on the Nesses panel, also disagreed with the
Posner handling of the issue, and concluded that ‘the RookerFeldman doctrine requires dismissal for lack of jurisdiction.’ 68
F.3d at 1005. Long v. Cross Reporting Service, Inc., 2008 WL
822124 at 2.
14

15

Circuit would follow Judge Posner’s reasoning in
Nesses v. Shepard).
Then, in 2006, the Honorable Richard Posner
authored another decision coming to the same
conclusion on the issue in Loubser v. Thacker, 440
F.3d 439 where the District Court’s decision to
dismiss on the basis of Rooker-Feldman was deemed
erroneous for the same reason as in Nesses:
“Otherwise there would be no federal
remedy other than an appeal to the U.S.
Supreme Court, and that remedy would be
ineffectual because the plaintiff could not
present evidence showing that the judicial
proceeding has been a farce, [citation]; one
cannot present evidence to an appellate
court . . .

Loubser, 440 F.3d at 441-442. In 2010, the 3d Circuit
sided with Judge Posner and the 7th Circuit in the
above described Great Western Mining & Mineral Co.,
615 F.3d 159 (3d Cir. 2010). The other Circuits have
refrained from published decisions endorsing this
view or otherwise coming to the same conclusion as
the 3rd and 7th Circuits as to this exception to RookerFeldman. In an unpublished decision, the Fifth
Circuit reversed a District Court’s application of
Rooker-Feldman to a federal plaintiff’s §1983
constitutional claims that a state-court judge
conspired with parties in a state court proceeding to
engineer the federal plaintiff’s defeat in those state
court proceedings. Land and Bay Gauging, LLC, 623
Fed.Appx. 674, 679-680 (5th Cir. 2015). However,
other federal claims in the same case were deemed
barred by Rooker-Feldman due to the “timing” of the
16

injuries. Some of the injuries were deemed to be
caused by the state court judgment, itself, and others
were deemed to be caused by the conspiracy between
the state court judge and other state court litigants in
the proceedings leading up to the state court
judgment. Id. When the adverse state court litigants
were acting pursuant to authority by the state court
judgment, and as such “harming” the federal plaintiff,
Rooker-Feldman bars relief. Id. at 679. But harm to
the federal plaintiff resulting from a state court’s
misconduct and adverse parties’ misconduct in the
proceedings that resulted in such state court
judgment, is redressable, and Rooker-Feldman does
not apply to bar relief for those injuries. Id. at 679680. This 5th Circuit case shows, at pages 680-681,
how the 5th Circuit’s application of the RookerFeldman doctrine changed significantly after its
watershed opinion in Truong v. Bank of America, 717
F.3d 377 (5th Cir. 2013), at which point it recognized
that the troublesome phrase “inextricably
intertwined” from Feldman “does not enlarge the core
holding of Rooker or Feldman”. Id. at 385 (quoted in
Land and Bay Gauging, L.L.C., 623 Fed.Appx. at 680681 (referring to District of Columbia Court of
Appeals v. Feldman, 460 U.S. 462 (1983)).
The fact that circuits outside of the 3rd and 7th
Circuits have used unpublished opinions to deal with
this issue, signals a persistent conflict on the matter.
There is a lingering confusion among the lower courts
on when, if ever, Rooker Feldman does not apply
when the federal plaintiff alleges damages or
declaratory relief against a state, or a judge for
conspiring with the federal plaintiff’s opposing party
in state court proceedings to predetermine the
17

outcome of that proceeding against the federal
plaintiff. The importance of this issue for the country
is obvious.
On the issue of judicial conspiracy, the 9th
Circuit has attempted to hide its conflict with Nesses,
Loubser, Great Western Mining & Mineral Co., and
Land and Bay Gauging, LLC. This is because, unlike
when the 5th Circuit had its epiphany in 2013 in
Truong, the 9th Circuit still erroneously believes that
the “inextricably intertwined” language from Feldman
properly expands the scope of the Rooker-Feldman
jurisdictional bar. Before discussing how this is so in
9th Circuit’s published case law, I refer the Court to
two recent unpublished 9th Circuit decisions directly
in conflict with the 3rd, 7th, and 5th Circuits on the
question presented here regarding state judicial
conspiracy. One is Finnegan v. Munoz, 698 Fed.Appx.
526 (9th Cir. 2017). But, as in Petitioner’s case, one
must read the underlying District Court opinion
reviewed by the 9th Circuit to clearly see the conflict.
Finnegan v. Munoz,15 2015 WL 3937590 at 1, 3-5;
2015 U.S. Dist. LEXIS 83530 at 1-2, 5-12 (SACV 150420-DSF (RNB) (C.D. California June 26, 2015).
Finnegan v. Munoz involved a federal plaintiff
bringing a 42 U.S.C. §1983 suit against a California
Judge, court clerk, and four attorneys representing a
City that obtained a receivership over the Plaintiff’s
property. The federal plaintiff claimed that all these
defendants conspired together to deny Plaintiff a fair
trial over whether the receiver should be appointed.
15

One of the Circuit Judges on the 9th Circuit panel in the
present case, N.R. Smith, was also on the appellate panel in
Finnegan v. Munoz.

18

Critically, Plaintiff did not seek an injunction forcing
the City to return his property. Nor did he seek
declaratory relief. The suit was only for compensatory
and punitive damages for the violation of the federal
plaintiff’s constitutional right to a fair trial. 2015 WL
3937590 at 1, 3-5; 2015 U.S. Dist. LEXIS 83530 at 12, 5-12. The defendants were all entitled to absolute
immunity. Id. at WL 5-8 and LEXIS at 12-18. But the
9th Circuit chose not to affirm on the basis of the
immunity of the defendants, but rather decided the
case on the basis of Rooker-Feldman, as did the U.S.
District Judge. Id. WL at 4-5; LEXIS at 8-12;
Finnegan v. Munoz, 698 Fed.Appx. 526 (2017). This
was wrong because Rooker-Feldman did not apply to
any part of such case.
Another 9th Circuit case showing the conflict is
Thomas v. Zelon,16 715 Fed.Appx. 780 (9th Cir. 2018),
but here again one must carefully review the
underlying U.S. District Court opinion to see it: 2017
WL 6017343, at 1, 3, 7. In Thomas v. Zelon, the
federal plaintiff claimed a conspiracy between several
California Court of Appeal Judges and adverse parties
in state court appellate proceedings to predetermine
the outcome of the proceedings and deny Plaintiff a
fair and impartial forum. Id. The suit sought
Another of the Circuit Judges on the 9th Circuit panel in the
present case, Edward Leavy, was also on the appellate panel in
Thomas v. Zelon. Edward Leavy is one of the most distinguished
U.S. Circuit Judges in the nation, having received the federal
judiciary’s highest honor in 2015, the Edward J. Devitt
Distinguished Service to Justice Award. See News Release dated
October 5, 2015 from the Public Information Office of the United
States Courts for the Ninth Circuit. Justice Rehnquist appointed
Edward Leavy as Presiding Judge of the United States Foreign
Intelligence Surveillance Court of Review between 2005 and
2008. (See Wikipedia entry for Judge Edward Leavy).
16

19

damages, Id. 3, a permanent injunction prohibiting
enforcement of a California Court of Appeal’s sanction
order, and declaratory relief that the sanctions order
violated the federal plaintiff’s constitutional rights, Id.
at 6. The federal plaintiff also claimed “extrinsic
fraud” upon the state court by an adverse party in the
state court proceedings. Id. at 8-9.17 While, as in the
5th Circuit’s Land and Bay Gauging, LLC , some of the
claims and relief sought in Thomas v. Zelon were
rightfully barred by Rooker-Feldman, (like an
injunction prohibiting enforcement of the state court
judgment), the constitutional due process claims
should not have been. The 9th Circuit Memorandum in
Thomas v. Zelon implied that the Rooker-Feldman
was being applied differently in two categories of the
claims in the case before it: those that constituted a
“’de facto appeal’ of prior state court judgments”, and,
secondly, (and differently) those that “are inextricably
intertwined’ with those judgments”. 715 Fed.Appx.
780.
The 9th Circuit has acknowledged that the
Rooker-Feldman doctrine “is often misapplied”.
The District Court applied the Rooker-Feldman bar because it
found that there was no “extrinsic fraud” by an adverse party in
“procur[ing]” “state court jurisdiction” in the state court
proceedings being reviewed. Id. at 8-9. Otherwise, the 9th Circuit
does recognize an extrinsic fraud exception to Rooker-Feldman,
even allowing the federal court to set aside or void a state court
judgment, as long as the extrinsic fraud was caused by a party in
the state court litigation who was adverse at the time to the
federal court plaintiff. Kougasian v. TMSL, Inc., 359 F.3d 1136,
1140-1143 (9th Cir. 2004).17 But this fraud exception to RookerFeldman in the 9th Circuit does not extend to a case in which the
federal plaintiff also alleges legal error, or bias on the part of the
state court tribunal, or conspiracy on the part of the state court
or state judge to deprive the federal litigant of a fair hearing.
17

20

Carmona v. Carmona, 603 F.3d 1041, 1051 (9th Cir.

2010). The reason why the doctrine was misapplied in
Petitioner’s instant case, as well as, Finnegan v.
Munoz, Thomas v. Zelon, and others, is because of
erroneous fundamental 9th Circuit doctrine on the
subject that has persisted long after the U.S. Supreme
Court’s 2005 limiting instruction in Exxon Mobil
Corp., 544 U.S. 280. Unlike other Circuits, the 9th
Circuit has two separate tests in applying the RookerFeldman jurisdictional bar to a case, the “de facto
appeal” test, and the “inextricably intertwined” test.
These two tests are misleading and confusing courts
in the 9th Circuit to apply Rooker-Feldman in
violation of U.S. Supreme Court precedent.
First, the federal court is to determine whether
the federal plaintiff is explicitly styling its complaint
as an appeal to a U.S. District Court of a state court
judgment adverse to the federal plaintiff, or bringing
a “defacto equivalent” of such an appeal. Cooper v.
Ramos, 704 F.3d 772, 777-778 (9th Cir. 2012) (citing
Noel v. Hall, 341 F.3d 1148, 1155, 1158 (9th Cir. 2003).
If so, then the Rooker-Feldman doctrine applies to the
case, at least in part. Id.
Second, once the federal court determines that
such a “defacto” appeal of a state court judgment is
present in the federal case, the court then determines
whether there are any issues in the federal case, the
resolution of which in plaintiff’s favor would be
dependent on a finding by the federal court that the
state court’s decision was in error. Any such issues
are also barred by Rooker-Feldman according to the
9th Circuit because they are considered “inextricably
interwined” with the state court decision that the
plaintiff is “defacto” appealing. Id. at 782. So the 9th
Circuit allows the Rooker-Feldman jurisdictional bar
21

to apply more broadly than permitted by the U.S.
Supreme Court in Exxon Mobil. One of the cases cited
by the 9th Circuit Memorandum in this present
matter explicitly describes the 9th Circuit’s broader
use of this jurisdictional bar: “The inextricably
intertwined test thus allows courts to dismiss claims
closely related to claims that are themselves barred
under Rooker-Feldman.” Kougasian v. TMSL, Inc.,
359 F.3d 1136, 1142 (9th Cir. 2004). This is no longer
allowed after Exxon Mobil, but the 9th Circuit
continues to do so.
The first test described above is misleading
because there is no such thing as an attempted direct
appeal from a state court to a U.S. District Court, and
there are no cases anywhere showing such.
Applications of the Rooker-Feldman jurisdictional bar
only concerns a federal plaintiff attempting to make a
“defacto” appeal. Noel v. Hall created confusion when
it drew a distinction between a direct appeal and
defacto appeal, when it stated: “Rooker-Feldman
becomes difficult- and, in practical reality, only comes
into play when a disappointed party seeks to take not
a formal direct appeal, but rather its de facto
equivalent, to a federal district court”. 341 F.3d 1148,
1155 (9th Cir. 2003). The confusion persisted because
Noel v. Hall’s standing in 9th Circuit case law was
greatly enhanced when the U.S. Supreme Court
approved of another part of Noel v. Hall, 341 F.3d at
1163-1164, in its watershed decision Exxon Mobil
Corp., 544 U.S. at 292.
This false distinction between a direct appeal of
a state court decision to a U.S. District Court versus a
defacto appeal resulted in a post-Exxon Mobil Corp.
9th Circuit case, Henrichs v. Valley View
Development, 474 F.3d 609, 613 (9th Cir. 2007)
22

inferring that there is more than one category of cases
to which Rooker-Feldman applies: “The clearest case
for dismissal based on the Rooker-Feldman doctrine
occurs when ‘a federal plaintiff asserts as a legal
wrong an allegedly erroneous decision by a state
court, and seeks relief from a state court judgment
based on that decision . . .’ Noel v. Hall, 341 F.3d
1148, 1164 (9th Cir. 2003)”, 474 F.3d at 613. The
District Court in the present case quotes this
statement on pages 3-4 of its Order Dismissing
Petitioner’s case. The U.S. District Court in the
present case then, on Page 4 of its order, misquotes
Kougasian v. TMSL, Inc., 359 F.3d 1136, 1139 as
stating “Rooker-Feldman may also apply where the
parties do not directly contest the merits of a state
court decision, as the doctrine . . .”, and then the order
correctly quotes Kougasian as stating that RookerFeldman “prohibits a federal district court from
exercising subject matter jurisdiction over a suit that
is a de facto appeal from a state court judgment.” Id.
After the U.S. Supreme Court’s decision in Exxon
Mobil Corp. the only claims to which the Rooker
Feldman jurisdictional bar applies are supposed to be
those that the meet the definition set forth at 544 U.S.
280, 284,18 no matter how the case may be labeled, as
a direct or defacto appeal of a state court decision.
There is no such additional distinction. Such
erroneous distinction in 9th Circuit jurisprudence
“The Rooker-Feldman doctrine, we hold today, is confined to cases of
the kind from which the doctrine acquired its name: cases brought by statecourt losers complaining of injuries caused by state-court judgments
rendered before the district court proceedings commenced and inviting
district court review and rejection of those judgments. Rooker-Feldman
does not otherwise override or supplant preclusion doctrine or augment the
circumscribed doctrines that allow federal courts to stay or dismiss
proceedings in deference to state-court actions”. Id at 284.
18

23

between direct versus defacto appeal caused
Petitioner’s present case to be dismissed.
The above described second test used in the 9th
Circuit for application of the Rooker-Feldman doctrine
wrongfully ascribes independent content to the
“inextricably intertwined” language of District of
Columbia Court of Appeals v. Feldman, 460 U.S. 462,
483-84, n. 16 (1983). Soon after Exxon Mobil Corp.,
the Second Circuit recognized this pitfall in Hoblock v.
Albany County Board of Elections, 422 F.3d 77 (2d
Cir. 2005), its watershed case for the doctrine ever
since:
The “inextricably intertwined language
from Feldman led lower federal courts,
including this court in Moccio, 95 F.3d at 199200, to apply Rooker-Feldman too broadly. In
light of Exxon Mobil- which quotes Feldman’s
use of the phrase but does not otherwise
explicate or employ it, [citation]- it appears that
describing a federal claim as “inextricably
intertwined” with a state-court judgment only
states a conclusion. Rooker-Feldman bars a
federal claim, whether or not raised in state
court, that asserts injury based on a state
judgment and seeks review and reversal of that
judgment; such a claim is “inextricably
intertwined” with the state judgment. But the
phrase “inextricably intertwined” has no
independent content. It is simply a descriptive
label attached to claims that meet the
requirements outlined in Exxon Mobil.

Hoblock, 422 F.3d 77, 86-87 (2d Cir. 2005). The 9th

Circuit continues to misuse this “inextricably
intertwined” language following Exxon Mobil Corp.
24

The 9th Circuit Memorandum in the present case cites
to Cooper v. Ramos where the Court barred one of the
federal claims that did not seek to undo a state court
judgment simply because it was related to a claim
that did seek to undo a state court judgment and also
because the claim was “contingent upon a finding that
the state court decision was in error. 704 F.3d 772,
782 (9th Cir. 2012).
In Cooper v. Ramos, the federal plaintiff
claimed that his constitutional due process rights
were violated in state court criminal proceedings
when his motion in the state court to be allowed DNA
testing of evidence was denied. 704 F.3d 772, 776 (9th
Cir. 2012). He sought a declaratory judgment stating
that he is entitled to the DNA testing, Id. at 779, and
the federal plaintiff also sought monetary damages
against adverse parties in the state court criminal
litigation for their violation of his constitutional
rights, Id. at 781-783.19 The claim for declaratory
relief was considered by the 9th Circuit to be a “de
facto appeal” of the state court judgment and barred
by Rooker-Feldman on that basis. Id. at 779-781
(“pure horizontal appeal of the state court decision”,
Id. at 779). The claim for monetary damages for the
due process violations was considered barred by
Rooker-Feldman, not because it was a “de facto
appeal”, but rather simply because it was considered
“inextricably intertwined” with the other claim for
declaratory relief. Id. at 781-783. In this respect,
Cooper v. Ramos is in conflict with Exxon Mobil
because the claim for monetary damages does not
The monetary damages were claimed against the San
Bernardino County District Attorneys criminologists, and
various law enforcement officials. Neither the state court, nor
any judge is named as a defendant. Id. at 772, 776.
19

25

seek to undo (or “reject”) the state court judgment.
Cooper v. Ramos was decided seven years after Exxon
Mobil, but the 9th Circuit was, and continues to apply
Rooker-Feldman broader than as allowed by the U.S.
Supreme Court (and broader than how the 3rd, 5th,
and 7th Circuits apply the doctrine). The 9th Circuit
Memorandum in the present quotes Cooper v. Ramos
to apply the jurisdictional bar when the federal
adjudication would simply “undercut the state ruling”.
Id. at 782. As follows, Cooper adopts Justice
Marshall’s approach to expand Rooker-Feldman in his
concurring opinion in Pennzoil Co. v. Texaco, Inc., 481
U.S. 1, 25 (1987). Cooper quotes Marshall:
While the question whether a federal
constitutional challenge is inextricably
intertwined with the merits of a state-court
judgment may sometimes be difficult to
answer, it is apparent, as a first step, that
the federal claim is inextricably intertwined
with the state-court judgment if the federal
claim succeeds only to the extent that the
state court wrongly decided the issues before
it. Where federal relief can only be predicated
upon a conviction that the state court was
wrong, it is difficult to conceive the federal
proceeding as, in substance, anything other
than a prohibited appeal of a state-court
judgment.

Id. (quoted by Cooper v. Ramos, 704 F.3d 772, 778-

779, 782 (9th Cir. 2012)). One of the 9th Circuit cases
quoted by the U.S. District Court on page 4 of its
order in the present matter tracks Justice Marshall’s
approach: “Where the district court must hold that
26

the state court was wrong in order to find in favor of
the plaintiff, the issues presented to both courts are
inextricably intertwined”. Doe & Associates Law
Offices v. Napolitano, 252 F.3d 1026, 1030 (9th Cir.
2001). The conclusion is, therefore, that such a finding
is sufficient for the federal court to lack jurisdiction.
But this conclusion is now at odds with the limiting
construction of Exxon Mobil Corp.
Following Exxon Mobil Corp., there is a conflict
between Circuits as to whether the “inextricably
intertwined” language in Feldman has “independent
significance” and whether the Rooker-Feldman
doctrine can apply simply where a federal “plaintiff’s
claim can succeed only to the extent that the federal
court concludes that a state court wrongly decided a
factual or legal issue.” Dodson v. University of Ark.
For Med. Sciences, 601 F.3d 750, 758 (8th Cir. 2010)
(Melloy, J., concurring).
V.
THERE IS A CIRCUIT SPLIT ON WHETHER
A “REASONABLE OPPORTUNITY” EXCEPTION
APPLIES TO THE ROOKER-FELDMAN
JURISDICTIONAL BAR.
The 11th Circuit recognizes such an exception.

Target Media Partners v. Specialty Marketing
Corporation, 881 F.3d 1279, 1286 (11th Cir. 2018) (“a

federal claim is not “inextricably intertwined” with a
state court judgment when there was no ‘reasonable
opportunity to raise’ that particular claim during the
relevant state court proceeding. [citation].”). The 9th
Circuit does not recognize this exception as shown in
its case law described in this petition. The exception
should apply to Petitioner’s case here.

27

Dated: August 22, 2019
s/ WILLIAM A. SALZWEDEL
__________________________
William A. Salzwedel

28

TABLE OF CONTENTS OF APPENDIX

Salzwedel v. State of California, et al.,

18-55574 Memorandum
765 Fed.Appx. 165 (9th Cir. March 19, 2019)……….001

Salzwedel v. State of California et al.,

18-55574, Order Denying Petition For Rehearing
2019 U.S. App. LEXIS 15637 (May 24, 2019)……...005

Salzwedel v. State of California et al.,

2018 WL 5264159, (U.S. District Court for the
Central District of California April 4, 2018)……….008

Conservatorship of Moore, 240 Cal.App.4th 1101,

193 Cal.Rptr.3d 179 (2015)……………………………018
Constitutional, Statutory, and
Regulatory Provisions………………………………….046

14th AMENDMENT TO THE
UNITED STATES CONSTITUTION,
SECTIONS 1 & 5……………………………………….046
42 U.S.C. §1983 CIVIL ACTION FOR
DEPRIVATION OF RIGHTS…………………………046
42 U.S.C. §1985 CONSPIRACY TO
INTERFERE WITH CIVIL RIGHTS
Part (2) Obstructing justice;
intimidating party, witness, or juror………………..047
42 U.S.C. §1985
CONSPIRACY TO INTERFERE
WITH CIVIL RIGHTS
a

Part (3) Depriving persons
of rights or privileges…………………………………..048
§504 OF THE REHABILITATION ACT OF 1973
29 U.S.C. §794(a)(b)(1)(4)
Nondiscrimination Under
Federal Grants And Programs……………………….049
§504 OF THE REHABILITATION ACT OF 1973
AMENDED 1978
29 U.S.C. §794a (a)(2) Remedies……………………..050
AMERICANS WITH DISABILITIES ACT,
TITLE II
42 U.S.C. §12132
Discrimination…………………………………………..050
AMERICANS WITH DISABILITIES ACT,
TITLE II
42 U.S.C. §12133
Enforcement……………………………………………..051
AMERICANS WITH DISABILITIES ACT.
Prohibition of Retaliation and Acts That Coerce,
Intimidate, Threaten, Or Interfere With
42 U.S.C. §12203………………………………………..051
§504 OF THE REHABILITATION ACT OF 1973
AMENDED 1978
28 CFR §42.107(e)
(also 34 CFR §100.7(e))
Intimidatory or retaliatory acts prohibited
(Originally In Implementation of Title VI
of the Civil Rights Act of 1964; Subsequently
Applied to §504 of the Rehabilitation Act)………….052
b

§504 OF THE REHABILITATION ACT OF 1973
28 CFR §42.503(b)(1)(2)(3)(5)(6)(d)(g)
Discrimination Prohibited…………………………….053
AMERICANS WITH DISABILITIES ACT,
TITLE II
28 CFR §35.130
General prohibitions against discrimination………055
AMERICANS WITH DISABILITIES ACT,
TITLE II
28 CFR §35.134 Retaliation or coercion…………….059

c

765 Fed.Appx. 165 (Mem)
This case was not selected for publication in West’s
Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1 generally
governing citation of judicial decisions issued on or
after Jan. 1, 2007. See also U.S.Ct. of App. 9th Cir.
Rule 36-3.
United States Court of Appeals, Ninth Circuit.
William A. SALZWEDEL, on behalf of himself, and
all others adversely affected by similar state action,
Plaintiff-Appellant,
v.
State of CALIFORNIA; et al., Defendants-Appellees.
No.
18-55574
|
Submitted March 12, 2019*
|
Filed March 19, 2019
Attorneys and Law Firms
William A. Salzwedel, Pro Se
Jeffrey A. Rich, Esquire, Deputy Associate General
Counsel, AGCA-Office of the California Attorney
General, Sacramento, CA, for Defendants-Appellees
State of California, Judicial Branch of California,
Tani G. Cantil-Sakauye, Judicial Council of
California, Martin Hoshino, Superior Court of
California County of Ventura, Glen M. Reiser,
California Court of Appeal for the 2nd Appellate
District

Appendix 001

Martha Jennifer Wolter, Esquire, Office of the County
Counsel, Ventura, CA, for Defendants-Appellees Mary
C. Webster, Office of the Public Defender for the
County of Ventura
Kevin Michael McCormick, Attorney, Benton, Orr,
Duval
&
Buckingham,
Ventura,
CA,
for
Defendants-Appellees Angelique Friend, Benton Orr
Duval, Thomas E. Olson
John C. Barlow, Esquire, Attorney, Law Offices of
John C Barlow, Simi Valley, CA, Jeffrey T. Belton,
Esquire, Attorney, Law Offices of Jeffrey T. Belton,
Simi Valley, CA, for Defendants-Appellees John C.
Barlow, Poppy Helgren
Appeal from the United States District Court for the
Central District of California, Andre Birotte, Jr.,
District
Judge,
Presiding,
D.C.
No.
2:17-cv-03156-AB-RAO
Before: LEAVY, BEA, and N.R. SMITH, Circuit
Judges.
*166 MEMORANDUM**
William A. Salzwedel appeals pro se from the district
court’s judgment dismissing his 42 U.S.C. § 1983
action alleging various claims stemming from his dual
role as attorney and trustee in a California probate
court. We have jurisdiction under 28 U.S.C. § 1291.
We review de novo. Kougasian v. TMSL, Inc., 359
F.3d 1136, 1139 (9th Cir. 2004) (dismissal under
Rooker–Feldman doctrine); Canatella v. California,
304 F.3d 843, 852 (9th Cir. 2002) (dismissal for lack of

Appendix 002

standing). We affirm.
The district court properly dismissed for lack of
standing Salzwedel’s claims asserted on behalf of
third parties. See Lujan v. Defs. of Wildlife, 504 U.S.
555, 560-61, 112 S.Ct. 2130, 119 L.Ed.2d 351 (1992)
(constitutional standing requires an “injury in fact,”
causation, and redressability); Coalition of Clergy,
Lawyers, & Professors v. Bush, 310 F.3d 1153, 1163
(9th Cir. 2002) (setting forth third-party standing
requirements).
The district court properly dismissed as barred by the

Rooker–Feldman doctrine Salzwedel’s first and second

claims because they are a de facto appeal of decisions
of the California probate and appellate courts and are
inextricably intertwined with those state court
decisions. See Kougasian, 359 F.3d at 1139
(“Rooker–Feldman prohibits a federal district court
from exercising subject matter jurisdiction over a suit
that is a de facto appeal from a state court
judgment.”); see also Cooper v. Ramos, 704 F.3d 772,
782 (9th Cir. 2012) (explaining that Rooker–Feldman
doctrine bars “inextricably intertwined” claim where
federal adjudication “would impermissibly undercut
the state ruling on the same issues” (citation and
internal quotation marks omitted) ).
Salzwedel’s requests for judicial notice, set forth in his
opening brief, and his motion for judicial notice
(Docket Entry No. 18) are granted.
AFFIRMED.

Appendix 003

All Citations
765 Fed.Appx. 165 (Mem)
Footnotes
*

The panel unanimously concludes this case is
suitable for decision without oral argument.
See Fed. R. App. P. 34(a)(2).

**

This disposition is not appropriate for
publication and is not precedent except as provided
by Ninth Circuit Rule 36-3.

Appendix 004

Salzwedel v. California
United States Court of Appeals for the Ninth Circuit
May 24, 2019, Filed
No. 18-55574
Reporter
2019 U.S. App. LEXIS 15637 *
WILLIAM A. SALZWEDEL, on behalf of himself,
and all others adversely affected by similar state
action, Plaintiff-Appellant, v. STATE OF
CALIFORNIA; et al., Defendants-Appellees.
Prior History: [*1] D.C. No. 2:17-cv-03156-AB-RAO.
Central District of California, Los Angeles.

Salzwedel v. California, 2019 U.S. App. LEXIS
8118 (9th Cir. Cal., Mar. 19, 2019)
Core Terms
en banc, petition for rehearing
Counsel: WILLIAM A. SALZWEDEL, on behalf
of himself, and all others adversely affected by
similar state action, Plaintiff - Appellant, Pro se,
Thousand Oaks, CA.
For State of California, Judicial Branch of
California, TANI G. CANTIL-SAKAUYE, on behalf
of herself in her official capacity and all other
similarly situated officials within other states,
JUDICIAL COUNCIL OF CALIFORNIA, on behalf
of itself and all other similarly situated bodies
within other states, MARTIN HOSHINO,

Appendix 005

Administrative Director of the Judicial Council of
California, on behalf of himself in his official
capacity and all other similarly situated officials
within other states, SUPERIOR COURT OF
CALIFORNIA COUNTY OF VENTURA, on behalf
of itself and all other Superior Courts of California
and all other courts that adjudicate or supervise
conservatorships or guardianships of adults in other
states, GLEN M. REISER, Honorable; on behalf of
himself in his official capacities and all other judges
in California that adjudicate of supervise
conservatorships of adults and all other judges that
adjudicate or supervise conservatorships or
guardianships of adults [*2] in other states,
Defendants- Appellees: Jeffrey A. Rich, Esquire,
Deputy, Associate General Counsel, AGCA-Office of
the California Attorney General, Sacramento, CA.
For MARY C. WEBSTER, individual capacity and
all others similarly situated, Defendant - Appellee:
Martha Jennifer Wolter, Esquire, Office of the
County Counsel, Ventura, CA.
For ANGELIQUE FRIEND, Conservator of the
Person and Estate of Lester G. Moore and all
others similarly situated, Benton Orr Duval And
Buckingham, Thomas E. Olson, Defendants Appellees: Kevin Michael McCormick, Attorney,
Benton, Orr, Duval & Buckingham, Ventura, CA.
For John C. Barlow, Poppy Helgren, Defendants
- Appellees: John C. Barlow, Esquire, Attorney,
Law Offices of John C Barlow, Simi Valley, CA;
Jeffrey T. Belton, Esquire, Attorney, Law Offices
of Jeffrey T. Belton, Simi Valley, CA.

Appendix 006

For California Court of Appeal For The 2nd
Appellate District, Division Six, Defendant Appellee: Jeffrey A. Rich, Esquire, Deputy,
Associate General Counsel, AGCA-Office of the
California Attorney General, Sacramento, CA.
For OFFICE OF THE PUBLIC DEFENDER FOR
THE COUNTY OF VENTURA, STATE OF
CALIFORNIA, on behalf of itself and all other
entities similarly situated, [*3] Defendant Appellee: Martha Jennifer Wolter, Esquire, Office
of the County Counsel, Ventura, CA.
Judges: Before: LEAVY, BEA, and N.R. SMITH,
Circuit Judges.
Opinion
ORDER
The panel has voted to deny the petition for panel
rehearing.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a
vote on whether to rehear the matter en banc. See
Fed. R. App. P. 35.
Salzwedel's petition for panel rehearing and
petition for rehearing en banc (Docket Entry No.
49) are denied.
No further filings will be entertained in this closed
case.

Appendix 007

2018 WL 5264159
Only the Westlaw citation is currently available.
United States District Court, C.D. California.
William A. SALZWEDEL et al.
v.
State of CALIFORNIA et al.
Case No.: CV 17-03156 AB (RAOx)
|
Filed 04/04/2018
Attorneys and Law Firms
William A. Salzwedel, Thousand Oaks, CA, pro se.
Jeffrey A. Rich, CAAG - Office of the Attorney General
California Department of Justice, Sacramento, CA,
John C. Barlow, John C. Barlow Law Offices, Simi
Valley, CA, Ronda J. McKaig, Ventura County
Counsel, Kevin M. McCormick, Benton Orr Duval and
Buckingham, Ventura, CA, for State of California et
al.

Proceedings: [In Chambers] ORDER GRANTING
MOTIONS TO DISMISS [Dkt. Nos. 45, 48, 50]
ANDRÉ BIROTTE JR., United States District Judge
*1 Before the Court are three Motions to Dismiss
(“Motions,” Dkt. Nos. 45, 48, 50) First Amended
Complaint filed by three groups of defendants.

Appendix 008

Plaintiff William Salzwedel (“Plaintiff”) filed
oppositions and the defendants filed replies. For the
following reasons, the Motions are GRANTED.
I. BACKGROUND
Plaintiff’s First Amended Complaint (“FAC,” Dkt. No.
43), which consists 240 pages and about 600
paragraphs1, arises out of a conservatorship and trust
suit (“Probate Proceedings”) before the Ventura
County Superior Court and the California Court of
Appeal. FAC ¶¶ 231, 448, 449; see also
Conservatorship of Moore, 240 Cal. App. 4th 1101
(2015).
In brief summary, Lester G. Moore had a Trust of
which his child Poppy Helgren was a contingent
beneficiary. Id. ¶ 232. In 2009, Moore, who was 80
years old, was diagnosed with dementia and
appointed Helgren as his attorney-in-fact. Id. ¶ 234.
In 2010, Helgren obtained physicians’ statements
saying Moore was no longer capable of managing his
affairs and sought to be named trustee of the Trust,
and apparently sought a conservatorship. Id. ¶235.
Moore was displeased with Helgren’s actions and
hired Plaintiff, an attorney, to oppose Helgren,
including by pursuing an elder abuse claim against
her. Id. ¶ 240. Moore revoked Helgren’s power of
attorney and appointed Plaintiff as trustee. Id. ¶¶
239, 243.
The FAC recounts in minute detail numerous events
in the Probate Proceedings. Some of the Probate
Proceedings are also described in Conservatorship of
Moore, 240 Cal. App. 4th 1101 (2015), of which this
Court takes judicial notice. As relevant, the probate

Appendix 009

court removed Plaintiff as trustee and appointed a
new trustee (Angelique Friend), but before Plaintiff
was removed as trustee, he paid himself $148,015.11
in “trustee’s fees,” which was 31.22% of the trust
estate, plus some $32,000 in other fees.
Conservatorship of Moore, 240 Cal. App. 4th at 1105.
Plaintiff filed a petition to settle his accounting, and
Friend and Helgren objected. The probate court
disapproved of $96,077.14 of Plaintiff’s trustee fees,
and entered a judgment surcharging him that
amount. The Court of Appeal affirmed and ordered its
opinion transmitted to the California State Bar so it
could
consider
pursuing
disciplinary
action,
characterizing the situation as follows: “Retained
counsel for an elderly person suffering from dementia
must safeguard the well-being of the person and his or
her financial resources. As we shall explain, here the
attorney did neither. The probate court expressly
indicated that counsel put his own financial interests
ahead of the interests of his client. It surcharged
counsel. We agree with the probate court’s ruling and
its rationale. We commend it. We affirm the
judgment.” Conservatorship of Moore, 240 Cal. App.
4th at 1103.
The FAC lists the following claims on its face page: “1.
discrimination, retaliation, coercion, intimidation,
threat, harassment on the basis of disability”; “2.
disparate treatment”; “3. conservatorship regime in
violation of equal protection”; “4. conservatorship
regime in violation of civil rights laws”; “5. violation of
due process right in adjudication of incapacity and
conservatorship”; and “6. declaratory relief.” Plaintiff,
who is appearing pro se, purports to assert some of
these claims on his own behalf, and on behalf of

Appendix 010

classes of attorneys and conservatees whose civil
rights he claims are violated by California’s
conservatorship regime. FAC ¶ 22. Plaintiff further
asserts that each of the named defendants conspired
with one another to engage in the alleged violations.
*2 Plaintiff asserts these claims against numerous
defendants who can be grouped as follows: the State
of California, Judicial Branch of California, Hon. Tani
G. Cantil-Sakauye, Judicial Council of California,
Martin Hoshino (administrative director of the
Judicial Counsel), Superior Court of California
County of Ventura, Hon. Glen M Reiser (who presided
over the trial court Probate Proceedings), and
California Court of Appeal for the Second District,
Division Six (which decided appeals from the Probate
Proceedings) (together, the “Judicial Defendants”);
Angelique Friend (the conservator Judge Reiser
appointed for Moore), and Thomas E Olson and
Benton, Orr, Duval & Buckingham, PLC (counsel for
conservator Friend in the Probate Proceedings)
(together, the “Conservator Defendants”); Mary
Webster and the County of Ventura sued as the Office
of the Public Defender of the County of Ventura
(together, the “County Defendants”); Poppy Helgren
(Moore’s daughter and the petitioner in the Probate
Proceedings); and John Barlow (counsel for Ms.
Helgren in the Probate Proceedings).
Now before the Court are three motions to dismiss
(“Motion”) filed by the Judicial Defendants (Dkt. No.
48), the Conservator Defendants (Dkt. No. 45), and
the County Defendants (Dkt. No. 50); Helgren and
Barlow filed joinders (Dkt. Nos. 49, 53) which the
Court grants. The Motions raise numerous

Appendix 011

meritorious grounds for dismissal, but the Court will
address only the Rooker-Feldman doctrine and
Plaintiff’s lack of standing. In light of the FAC’s
jurisdictional defects, the Court may not adjudicate
the other grounds for dismissal.
II. DISCUSSION
A. The Court Lacks Subject Matter Jurisdiction
Over Plaintiff’s First and Second Causes of Action.
The only federal court authorized “to exercise
appellate authority ‘to reverse or modify’ a state-court
judgment” is the United States Supreme Court. Exxon
Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S. 280,
284 (2005). (“The Rooker-Feldman doctrine [ ]
recognizes that 28 U.S.C. § 1331 is a grant of original
jurisdiction, and does not authorize district courts to
exercise appellate jurisdiction over state-court
judgments, which Congress has reserved to this
Court, see § 1257(a).” Verizon Md. Inc. v. Public Serv.
Comm’n of Md., 535 U.S. 635, 644, n. 3 (2002) ). Thus,
under the Rooker–Feldman doctrine, a federal district
court does not have subject matter jurisdiction to hear
a direct appeal from the final judgment of a state
court. Noel v. Hall, 341 F.3d 1148, 1154–55 (9th Cir.
2003) (explaining history and statutory origin of the
doctrine). Rooker–Feldman bars “cases brought by
state-court losers complaining of injuries caused by
state-court judgments rendered before the district
court proceedings commenced and inviting district
court review and rejection of those judgments.” Exxon
Mobil, 544 U.S. at 284.
“The clearest case for dismissal based on the

Appendix 012

Rooker–Feldman doctrine occurs when a federal

plaintiff asserts as a legal wrong an allegedly
erroneous decision by a state court, and seeks relief
from a state court judgment based on that decision.”
Henrichs v. Valley View Dev., 474 F.3d 609, 613 (9th
Cir.2007) (internal quotation marks omitted). But
“Rooker–Feldman may also apply where the parties
do not directly contest the merits of a state court
decision, as the doctrine ‘prohibits a federal district
court from exercising subject matter jurisdiction over
a suit that is a de facto appeal from a state court
judgment.’ ” Kougasian v. TMSL, Inc., 359 F.3d 1136,
1139 (9th Cir. 2004) (citing Bianchi v. Rylaarsdam,
334 F.3d 895, 898 (9th Cir. 2003) ).

Rooker–Feldman applies even where the challenge to

the state court decision involves federal constitutional
issues. Worldwide Church of God v. McNair, 805 F.2d
888, 891 (9th Cir.1986). To determine whether a
plaintiff making a permissible general constitutional
challenge that does not require review of a state court
decision in a particular case and an impermissible
appeal of a state court determination, the court
should ask whether it is “ ‘in essence being called
upon to review the state court decision.’ ” Doe &
Assocs. Law Offices v. Napolitano, 252 F.3d 1026,
1029 (9th Cir. 2001) (citing D.C. Ct. of App. v.
Feldman, 460 U.S. 462, 482 n. 16 (1983) ).
*3 Here, Plaintiff’s first and second claims are barred
by Rooker–Feldman. To be sure, the FAC anticipates
and attempts to preempt this argument by claiming
that Plaintiff’s harm derives not from the judgment
against him, but rather from the conservatorship
regime itself. But the FAC itself belies this

Appendix 013

characterization, as it contains numerous allegations
that Plaintiff’s wrongs were caused by the probate
and appellate court orders. See, e.g., FAC ¶¶
23(ii)-(iii), 245, 259, 2260, 262,291, 294, 296-297,306,
336, 339, 343-345, 352.367, 417-418, 429-433,
449-451. To adjudicate these claims, this court would
have to sit in review of those state court orders.
The allegations specific to the first and second claims
further show that they seek review of state court
orders. Plaintiff’s first claim, for retaliation, would
require this court to decide that the state court
actions adverse to him (removing him as trustee,
surcharging his fees) were wrongful and motivated by
discrimination. See FAC ¶ 457 and p. 219 ¶ 145 (“As a
proximate result of the above misconduct, Plaintiff
has been harmed in that a Judgment of Surcharge of
$96,077.14 was entered against Plaintiff ...”).
Plaintiff’s second claim, for violation of the Equal
Protection Clause, is that Judge Reiser treated him
“less favorably” than he treated Friend, Barlow,
Olson, and the Benton law firm, FAC p. 222 ¶ 143,
and that Plaintiff was damaged by the surcharge
order. Id. p. 225, ¶ 145. For Plaintiff to prevail on
these claims, the Court would have to determine that
the state court orders removing him as trustee and
surcharging fees were wrong—something this Court
lacks jurisdiction to do. See Doe & Assocs., 252 F.3d at
1030 (“Where the district court must hold that the
state court was wrong in order to find in favor of the
plaintiff, the issues presented to both courts are
inextricably intertwined” and the district court lacks
jurisdiction).
Plaintiff mounts two main counterarguments, but

Appendix 014

they are unavailing. First, he questions whether the
Rooker-Feldman doctrine remains viable following the
2005 Exxon case, supra, but this argument fails in
light of the numerous later cases cited throughout the
defendants’ memoranda. Second, Plaintiff argues that
he is not really complaining of being injured by the
state court judgment, but instead is complaining that
the state courts “went far beyond their proper judicial
functions and in fact, attacked the very objective of
the representation itself, the defense of Lester Moore’s
fundamental rights.” See Opp’n (Dkt. No. 61) 8:2-22.
But Plaintiff’s FAC repeatedly charges that the state
court rulings were in error; implausibly suggesting
that the defendants all engaged in misconduct and a
conspiracy does not vest this court with jurisdiction to
review the state court orders. See Cooper v. Ramos,
704 F.3d 772, 782 (9th Cir. 2012) (“The alleged
conspiracy is a fig leaf for taking aim at the state
court’s own alleged errors. It is precisely this sort of
horizontal review of state court decisions that the
Rooker–Feldman doctrine bars.”). Relatedly, Plaintiff
argues that he is not challenging the imposition of the
surcharge, but rather that the surcharge was a
pretext for discrimination. Id. 9:12-18. This is a
distinction without a difference because a challenge to
the surcharge as pretextual is in fact an attack on the
surcharge judgment.
For these reasons, the Court lacks jurisdiction over
Plaintiff’s first two causes of action and dismisses
them on that basis.

Appendix 015

B. Claims 3, 4, and 5 Are Dismissed for Lack of
Standing.
Plaintiff’s claims 3-5 represent a wholesale challenge
to the legality of California’s “conservatorship
regime,” asserting that it violates the Equal
Protection Clause, the Procedural and Substantive
Due Process guarantees of the 14th Amendment, the
California Constitution, the Americans with
Disabilities Act (“ADA”), the Rehabilitation Act, and
42 U.S.C. §§ 1983 and 1985, among other laws and
regulations. Plaintiff purports to bring these claims
on behalf of his former client Lester Moore and other
similarly situated conservatees and subclasses of
conservatees
nationwide,
arguing
that
conservatorship regimes throughout the nation violate
their constitutional and statutory rights. See FAC ¶
63; see also ¶¶ 71-86 (purporting to define numerous
classes and subclasses, including nationwide classes
challenging the conservatorship laws in every state),
and ¶¶ 87-110 (alleging that each named defendant
also represents one or more class of defendants).
*4 But Lester Moore is not a plaintiff, so this action
cannot be a vehicle to pursue claims for him. The
claims on behalf of the other conservatee classes fail
for the same reason: no member of any of those
classes is a named plaintiff. Furthermore, Moore is a
conservatee, and only his conservator can represent
him. See Cal.Civ.Proc. § 372(a) (a party for whom a
conservator has been appointed shall be represented
by that conservator). Because Plaintiff is not Moore’s
conservator, he cannot represent Moore in this action
even if Moore were a party to it.
To the extent that Plaintiff himself seeks to represent

Appendix 016

any class, this tactic fails for at least two reasons.
First, Plaintiff is not a conservatee, so he lacks
standing to represent any class of conservatees.
Second, Plaintiff is appearing pro se, and a pro se
litigant cannot represent a class even if he is also an
attorney. See Local Rule 83-2.2.
C. Claim 6 Is Dismissed.
Claim 6 seeks declaratory relief wholly derivative of
Plaintiff’s other claims. It therefore falls along with
them, and is dismissed.
III. CONCLUSION
For the foregoing reasons, the Motions to Dismiss are
GRANTED. Plaintiff already amended his complaint
once, almost quadrupling its volume yet failing to
state any claim that this Court may adjudicate.
Furthermore,
the
defects noted
above are
jurisdictional and cannot be cured by any
plausibly-available amendment. The action is
therefore dismissed without leave to amend. The
Clerk’s Office is ordered to close the case.
IT IS SO ORDERED.
All Citations
Slip Copy, 2018 WL 5264159
Footnotes
1

The count is an estimate because the FAC’s
paragraphs are misnumbered.

Appendix 017

240 Cal.App.4th 1101
Court of Appeal, Second District, Division 6,
California.
CONSERVATORSHIP OF the Person and Estate of
Lester MOORE.
Angelique Friend, as Conservator and Trustee, etc.,
Petitioner and Respondent,
v.
William Salzwedel, Objector and Appellant.
2d Civil No. B253538
|
Filed September 30, 2015
|
Rehearing Denied October 21, 2015
|
Review Denied December 16, 2015
Synopsis
Background: Daughter beneficiary filed petition for
conservatorship over settlor, and filed petition to
determine his capacity to execute estate planning
documents. After petitions were consolidated, and
receiver and temporary conservator were appointed,
court removed attorney trustee as trustee, and
ordered him to render a trust accounting. Attorney
trustee filed petition to settle his accounting. The
Superior
Court,
Ventura
County,
Nos.
56–2010–00387487–PR–CP–OXN
and
56–2011–00391417–PR–TR–OXN, Glen M. Reiser, J.,
issued surcharge order, and attorney trustee
appealed.

Appendix 018

Holdings: The Court of Appeal, Yegan, J., held that:
substantial evidence supported finding that fees
which attorney trustee charged trust were
unreasonable;

[1]

conservatee substantial evidence supported finding
that $27,515.13 which attorney trustee charged to
trust for expert witness fees was excessive;

[2]

settlor’s receipt of bills from attorney trustee and
failure to object did not indicate approval of fees or
that the fees charged were reasonable;

[3]

testimony of conservatee settlor’s girlfriend, who
allegedly was present when settlor received bills from
attorney trustee, was irrelevant to issue of whether
fees were reasonable;

[4]

court was not required to make findings concerning
conservatee settlor’s wishes and objectives in hiring
attorney trustee;

[5]

attorney trustee had notice required by due process
that his block billings would be at issue;

[6]

pre-hearing order placed attorney trustee on notice
he had the burden of proving conservatee’s mental
capacity to consent to charged fees; and

[7]

beneficiary was an interested party with standing
to object to attorney trustee’s accounting.

[8]

Appendix 019

Affirmed.
West Headnotes (17)
[1]

Appeal and Error
Costs and Fees
Appeal and Error
Attorney Fees
Court would review surcharge
order for excessive trustee and
attorney’s fees using the abuse of
discretion standard.
4 Cases that cite this headnote

[2]

Trusts
Costs
Principles of trust law impose a
double-barreled
reasonableness
requirement on fees awarded to a
trustee: a fee award must be
reasonable
in
amount
and
reasonably necessary to the
conduct of the litigation, but it also
must
be
reasonable
and
appropriate for the benefit of the
trust.
1 Cases that cite this headnote

Appendix 020

[3]

Trusts
Counsel fees and costs
A spare-no-expense strategy by a
trustee calls for close scrutiny on
questions
of
reasonableness,
proportionality and trust benefit;
consequently, where the trust is
not benefited by litigation, or did
not stand to be benefited if the
trustee had succeeded, there is no
basis for the recovery of expenses
out of the trust assets. Cal. Prob.
Code § 17200(b)(9),(21).
2 Cases that cite this headnote

[4]

Trusts
Counsel fees and costs
Trusts
Evidence
Attorney trustee had burden in
accounting action to show that he
subjectively believed fees and
expenses charged to trust were
necessary or appropriate to carry
out the trust’s purposes, and that
his
belief
was
objectively
reasonable.
Cases that cite this headnote

Appendix 021

[5]

Trusts
Counsel fees and costs
Substantial evidence supported
finding that fees which attorney
trustee
charged
trust
were
unreasonable; attorney trustee
drafted an elder abuse petition
that was never filed, prepared
trust amendments and estate
planning documents that were not
signed or filed, billed the trust to
educate himself on conservatorship
law, and failed to keep adequate
time records. Cal. Prob. Code §
17200(b)(9),(21).
1 Cases that cite this headnote

[6]

Trusts
Counsel fees and costs
Substantial evidence supported
finding that $27,515.13 which
attorney trustee charged to trust
for expert witness fees was
excessive; attorney trustee secured
expert doctor who charged $6,000
for travel time and billed
$11,508.75 for “report writing” and
a
psychological
assessment,
attorney trustee could have hired
nearby doctor to make the
psychological
evaluation
for

Appendix 022

$2,500, attorney trustee also paid
a “celebrity psychiatrist” $7,500 to
evaluate conservatee, but she
never wrote a report or testified,
and attorney trustee paid another
attorney-doctor $3,000 to review
some medical records. Cal. Prob.
Code § 17200(b)(21).
Cases that cite this headnote
[7]

Trusts
Expenditures
A trustee’s power to incur expenses
is limited to those expenses which
are reasonably necessary or
appropriate to carry out the
purposes of the trust.
Cases that cite this headnote

[8]

Trusts
Counsel fees and costs
Attorney trustee did not have any
duty to follow the instructions of
conservatee settlor no matter what
the cost or expense; rather,
attorney trustee had a duty not to
charge trust excessive fees and
expenses. Cal. R. Prof. Conduct

Appendix 023

4–200(a), 5-310(b)(3).
Cases that cite this headnote
[9]

Trusts
Counsel fees and costs
Conservatee settlor’s receipt of
bills from attorney trustee and
failure of settlor, who suffered
from dementia, to object to the
bills did not indicate approval of
attorney trustee’s fees or that the
fees charged were reasonable. Cal.
Prob. Code § 17200(b)(9).
Cases that cite this headnote

[10]

Trusts
Evidence
Testimony of conservatee settlor’s
girlfriend, who allegedly was
present when settlor, who suffered
from dementia, received bills from
attorney trustee, was irrelevant to
issue of whether fees were
reasonable,
and
thus
was
inadmissible in accounting action,
even if testimony would show
settlor’s state of mind and implied
approval of the fees; parties agreed
that attorney trustee had a good
faith belief that an attorney-client

Appendix 024

relationship existed and asked the
trial court to determine the
reasonableness of the fees and
medical expert expenses. Cal.
Evid. Code §§ 1250, 1261; Cal.
Prob. Code § 17200(b)(9).
Cases that cite this headnote
[11]

Evidence
Nature and Admissibility
Conservatee settlor’s statements to
girlfriend, who allegedly was
present when settlor, who suffered
from dementia, received bills from
attorney
trustee,
were
not
admissible in accounting action
under hearsay exception for
statements “offered in an action
upon a claim or demand against
the estate of the declarant if the
statement was made upon the
personal
knowledge
of
the
declarant at the time when the
matter had been recently perceived
by him and while his recollection
was clear,” absent any offer of
proof
that
settlor
verbally
approved the fees or that his
statement was trustworthy, i.e.,
made when the matter had been
recently perceived by settlor and
while his recollection was clear.
Cal. Evid. Code § 1261(a); Cal.

Appendix 025

Prob. Code § 17200(b)(9).
Cases that cite this headnote
[12]

Trusts
Hearing or reference
Probate court was not required in
accounting action to make findings
concerning conservatee settlor’s
wishes and objectives in hiring
attorney trustee, as focus of the
hearing was whether fees and
expenses charged by attorney
trustee were reasonable and
benefited the trust, and wishes or
objectives of settlor, who suffered
from dementia, did not trump
attorney
trustee’s
duty
to
prudently spend trust money and
avoid conflicts of interest with the
trust.
Cal.
Prob.
Code
§
17200(b)(9).
Cases that cite this headnote

[13]

Appeal and Error
Constitutional questions
Attorney trustee did not object at
accounting hearing that he was
denied due process because he did
not know until the last day of trial

Appendix 026

that block billing would be a basis
for surcharge order, and thus was
precluded from raising that issue
on appeal. U.S. Const. Amend. 14;
Cal. Prob. Code § 17200(b)(9).
Cases that cite this headnote
[14]

Constitutional Law
Wills, Trusts, Probate,
Inheritance, and Dower
Trusts
Hearing or reference
Attorney trustee had notice
required by due process that his
block billings would be in issue in
accounting proceeding; receiver
had stated that he would not
approve “billings with just hours
appearing” and that he did not
know how attorney trustee would
segregate work representing trust
from
work
representing
conservatee settlor, receiver told
attorney trustee to break out what
was spent actually lawyering for
the trust, what was spent being
trustee, and what was spent on
personal services for conservatee,
and probate court found in
pre-hearing order that accounting
was disorganized and did not
comply with accepted statutory
format and asked to see time

Appendix 027

sheets. U.S. Const. Amend. 14;
Cal. Prob. Code § 17200(b)(9).
Cases that cite this headnote
[15]

Constitutional Law
Wills, Trusts, Probate,
Inheritance, and Dower
Trusts
Hearing or reference
Pre-hearing order placed attorney
trustee on notice he had the
burden at accounting hearing of
proving
conservatee’s
mental
capacity to consent to charged fees,
and thus hearing did not violate
attorney’s due process rights;
pretrial
order
stated
that
accounting would be set for
evidentiary hearing to surcharge
attorney
for
any
sums
unnecessarily charged, improperly
charged or overcharged, attorney
was provided a three day hearing,
and, like any trustee, the burden
was on attorney to itemize his fees
and expenses and show they were
reasonable. U.S. Const. Amend. 14;
Cal. Prob. Code § 17200(b)(9).
Cases that cite this headnote

Appendix 028

[16]

Trusts
Objections and exceptions to
account
Remainder beneficiary was an
interested party with standing to
object to trust accounting. Cal.
Prob. Code § 17200(a).
Cases that cite this headnote

[17]

Trusts
Proceedings for Final Settlement
When presented with a petition to
settle an account, the probate
court has a duty imposed by law to
inquire into the prudence of the
trustee’s administration. Cal. Prob.
Code § 17200(b)(9).

See 13 Witkin, Summary of Cal.
Law (10th ed. 2005) Trusts, § 229.
Cases that cite this headnote
**182 Glen M. Reiser, Judge, Superior Court County
of
Ventura,
(Super.
Ct.
No.
56–2010–00387487–PR–CP–OXN Consolidated with
No. 56–2011–00391417–PR–TR–OXN)
Attorneys and Law Firms

Appendix 029

William A. Salzwedel, in pro per, for Appellant.
Benion, Orr, Duval & Buckingham and Thomas E.
Olson, Ventura, for Angelique Friend, Respondent.
No appearance for Poppy Helgren, Respondent.

Opinion
YEGAN, J.
*1103 Retained counsel for an elderly person suffering
from dementia must safeguard the well-being of the
person and his or her financial resources. As we shall
explain, here the attorney did neither. The probate
court expressly indicated that counsel put his own
financial interests ahead of the interests of his client.
It surcharged counsel. We agree with the probate
court’s ruling and its rationale. We commend it. We
affirm the judgment.
Attorney William Salzwedel appeals a $96,077.14
judgment
surcharging
him
for
excessive
attorney’s/trustee’s fees ($70,044.99), medical expert
fees ($25,015.13), and costs ($1,017.02) incurred while
acting as the temporary trustee of the Moore Family
Trust. Appellant paid himself fees and costs after his
82-year-old client, Lester Moore, was diagnosed with
dementia and the subject of a conservatorship
petition. Appellant hired medical experts to oppose
the conservatorship petition and drafted trust and
estate documents to disinherit Moore’s family. Sitting
as the trier of fact, and exercising its broad discretion,
the probate court found that the fees and expenses

Appendix 030

were unreasonable and did not benefit the trust or
Moore.
*1104 Appellant has no appreciation for the
traditional rules on appeal. (See. e.g., **183 Estate of
Gilkison (1998) 65 Cal.App.4th 1443, 1448–1450, 77
Cal.Rptr.2d 463, In re Marriage of Greenberg (2011)
194 Cal.App.4th 1095, 1099, 125 Cal.Rptr.3d 238.) He
contends, among other things, that the probate court
used the wrong standard in determining the
reasonableness of his fees and expenses.

Facts and Procedural History
In 1993, Lester Moore (Moore) and his wife, Lou Dell
Moore, created the Moore Family Trust naming their
daughter, Poppy Helgren, remainder beneficiary.
After Lou Dell Moore died in 2001, Moore signed a
durable power of attorney appointing Helgren as his
attorney in fact.
After Moore’s treating physicians notified Helgren
that Moore suffered from dementia and lacked the
capacity to handle his affairs, Helgren discovered that
Moore was giving large sums of money to his
girlfriend, Lieselotte Kruger. When Helgren brought
this to Moore’s attention, he accused Helgren of
stealing trust money. Moore hired appellant to file an
elder abuse petition and amend his estate plan.
In October of 2010, appellant had Moore sign the
following documents: (1) a partial revocation and
modification of the trust, naming appellant as
temporary successor trustee of the trust; (2) Moore’s

Appendix 031

resignation as trustee; and (3) a durable power of
attorney appointing appellant as Moore’s attorney in
fact. The next day, appellant sent Helgren a letter
accusing her of violating trustee duties. Helgren
provided an accounting which showed that no funds
were misappropriated.
In December of 2010, Helgren filed a petition for
conservatorship. (Ventura County Super Ct., Case No,
56-2010-00387487-PR-CP-OXN). A few months later,
she filed a second petition to determine Moore’s
capacity to execute the estate planning documents
(Super.
Ct.,
Ventura
County,
2011,
No.
59-2011-00391417-PR-TR-OXN).
The probate court consolidated the petitions and
appointed Attorney Lindsay Nielson as receiver to
inventory Moore’s property and trust assets.
Appellant submitted billings for fees and expert
witness expenses to the receiver who paid the bills but
voiced concerns about the amount charged. In
February of 2012, the court appointed Senior Deputy
Public Defender Mary Shea as cocounsel for Moore
and, appointed respondent Angelique Friend, a
professional fiduciary, as temporary conservator of
Moore’s person and estate. Immediately upon her
appointment, Friend terminated appellant as Moore’s
attorney.
*1105 In May of 2012, the probate court removed
appellant as trustee, appointed Friend as the new
temporary successor trustee of the trust, and ordered
appellant to render a trust accounting. (Prob.Code, §
15642.) Before he was removed as trustee, appellant
paid himself $148,015.11 in “trustee’s fees.”

Appendix 032

Appellant filed a petition to settle his accounting to
which Friend and Helgren objected. (Prob.Code, §
17200, subd. (b)(5))1 Before the evidentiary hearing,
the trial court ruled that the trustee’s fees
($148,015.11) were disapproved absent a showing that
the services benefited Moore in the sums charged and
a showing that Moore had the capacity to contract for
and approve the fees when the services were
rendered. With respect to the medical expert expenses
($28,452.63), the probate court ruled that “[t]hese
professional fees are expressly disapproved absent an
affirmative showing by [appellant] that the charged
‘medical’ services benefited Mr. Moore in the sums
charged.” The probate **184 court noted that the
accounting listed $474,348.01 in opening inventory
and cash receipts and that appellant paid himself
$148,015.11 in fees, “or 31.22% of the conservatee’s
reported trust estate, ... plus another $32,288.21, or
another 6.81% of the conservatee’s reported trust
estate, in related ‘professional’ and litigation fees.”

Reasonable Fees and Expenses
[1] [2]We

review the surcharge order utilizing the abuse
of discretion standard. (Donahue v. Donahue (2010)
182 Cal.App.4th 259, 268–269, 105 Cal.Rptr.3d 723
(Donahue); see Estate of Gilkison, supra, 65
Cal.App.4th at pp. 1448–1449.) As trustee, appellant
was charged with the responsibility of incurring fees
and expenses that were reasonable in amount and
appropriate to the purposes of the trust. (Donahue v.
Donahue, supra, at p. 268, 105 Cal.Rptr.3d 723.)
“Long-established principles of trust law impose a

Appendix 033

double-barreled reasonableness requirement: the fee
award must be reasonable in amount and reasonably
necessary to the conduct of the litigation, but it also
must be reasonable and appropriate for the benefit of
the trust.” (Id., at p. 363, 105 Cal.Rptr.3d 723.)
Appellant contends that the trial court applied the
wrong standard in reviewing his fees because he was
retained before Moore’s mental capacity was
adjudicated in the conservatorship proceeding.
Appellant claims that Moore had the autonomous and
unfettered right to decide what services would be
provided and that appellant was duty bound to
zealously act on Moore’s personal wishes. By this
theory, there could be no probate court review of his
fees.
[3] [4]We

reject these arguments because appellant,
acting in a trustee capacity, paid the fees and
expenses with trust funds. Appellant could not put
*1106 on “horse blinders” and follow the orders of a
client whom he knew, even before formal
adjudication, suffered from mental impairment.2 In
order to approve the trustee accounting, the trial
court had to determine the reasonableness of the fees
and expenses. (§ 17200, subd. (b)(9) & (b)(21);
Donahue, supra, 182 Cal.App.4th at p. 269, 105
Cal.Rptr.3d 723.) “[A] spare-no-expense strategy calls
for close scrutiny on questions of reasonableness,
proportionality and trust benefit. ‘Consequently,
where the trust is not benefited by litigation, or did
not stand to be benefited if the trustee had succeeded,
there is no basis for the recovery of expenses out of
the trust assets’ [Citation.]” (Id., at p. 273, 105
Cal.Rptr.3d 723.) As trustee, the burden was on

Appendix 034

appellant to show that he subjectively believed the
fees and expenses were necessary or appropriate to
carry out the trust’s purposes, and that his belief was
objectively reasonable. (Id., at p. 268, 105 Cal.Rptr.3d
723; Conservatorship of Lefkowitz (1996) 50
Cal.App.4th 1310, 1314, 58 Cal.Rptr.2d 299.)
[5]Substantial

evidence supports the finding that the
fees were unreasonable. Appellant drafted an elder
abuse petition that was never filed, prepared trust
amendments and estate planning documents that
were not signed or filed, billed the trust to educate
himself on conservatorship law, and failed to keep
adequate time records. Appellant had little, if any,
experience in conservatorship matters or in acting as
a trustee.

[6]The

expert witness expenses ($27,515.13) were also
excessive. Appellant retained **185 Edward Hyman,
Ph.D., a psychologist, from Northern California who
billed at the rate of $495 an hour. Doctor Hyman
charged $6,000 for travel time and billed 23.25 hours
($11,508.75) on January 6, 2012 for “report writing”
and a psychological assessment. The trial court found
that appellant could have hired a medical expert from
UCLA to make the psychological evaluation for
$2,500.3 Appellant also paid a “celebrity psychiatrist,”
Dr. Carole Lieberman, $7,500 to evaluate Moore but
the doctor never wrote a report or testified. In an
e-mail, appellant admitted that Doctor Lieberman’s
fees were shocking and that Doctor Hyman’s travel
fees were an embarrassment. Appellant paid another
attorney-doctor, Alan Abrams, $3,000 to review some
medical records. The trial court found that $2,500 was
a reasonable fee for Moore’s psychological evaluation

Appendix 035

and that “everything else was wasted money and
wasted time....” No abuse of discretion occurred.
“Probate courts have a special responsibility to ensure
that fee awards are *1107 reasonable, given their
supervisory responsibilities over trusts.” (Donahue,
supra, 182 Cal.App.4th at p. 269, 105 Cal.Rptr.3d
723.)
The probate court factually found that appellant “was
predominately fighting for his own economic interest,
and was not fighting for Mr. Moore’s rights....
[Appellant] prevailed upon Mr. Moore, who was a
senior with conceded memory issues and prior
dementia diagnoses[,] to engage counsel. In that
context, [appellant] infused himself as the trustee of
the Moore Family Trust, infused himself as the agent
under a Power of Attorney signed by Mr. Moore, and
infused himself as the attorney for Mr. Moore with a
perceived license to utilize as much of the estate as
necessary to satisfy [appellant’s] vision of what
fighting is all about, as opposed to the propriety of
serving the needs of a prospective and possible
conservatee. [¶] Ultimately, even during the
conservatorship proceedings, [appellant] was drafting
testamentary documents for signature by Lester G.
Moore which would have had the effect of
disinheriting his own family in favor of one of
[appellant’s] allies.”
[7]Appellant

contends that Moore “approved” the fees
and that it operated as a partial revocation of the
trust each time a bill was paid by appellant or the
receiver. We reject the argument because there is no
evidence that Moore, whether of sound mind or not,
approved any of the fees or expenses. The

Appendix 036

attorney-client relationship with Moore did not give
appellant carte blanche authority to pay himself
excessive fees. “A trustee’s power to incur expenses is
limited to those expenses which are reasonably
necessary or appropriate to carry out the purposes of
the trust. [Citation.]” (Conservatorship of Lefkowitz,
supra, 50 Cal.App.4th at p. 1314, 58 Cal.Rptr.2d 299.)
[8]Appellant

claims that he had a duty to follow the
instructions of the conservatee no matter what the
cost or expense. By this theory, he could have spent
the entire trust corpus “fighting” the conservatorship
petition. Appellant had Moore modify the trust and
name appellant temporary successor trustee of the
trust. As Moore’s trustee and attorney, appellant had
a duty not to charge excessive fees **186 and
expenses. (State Bar Rules Prof. Conduct, rules
4-200(A) [attorney may not charge unconscionable
fee]; Rule 5-310(B)(3) [attorney may not pay
unreasonable fee for professional services of an expert
witness].) Appellant’s trust accounting shows that the
fees and expenses were excessive. In the words of the
probate court, “you’re talking about an attorney
broaching elder abuse and that disturbs me a lot.”

Exclusion of Girlfriend’s Testimony
[9]Appellant

claims that Moore consented to the fees
because billing copies were mailed to Moore’s house
and Moore never objected to the amounts *1108
charged. Receipt of the bills, however, does not mean
that Moore approved the fees or that the fees were
reasonable. Moore suffered from dementia and was an
unavailable witness. At trial, Moore did not even

Appendix 037

know who appellant was!
Appellant argues that the trial court abused its
discretion in excluding the testimony of Moore’s
girlfriend, Kruger, who was allegedly present when
Moore received the bills. The trial court ruled that
Kruger’s testimony was not relevant “[b]ecause the
Court is determining the reasonableness [of the fees].
It is not Mr. Moore who is determining the
reasonableness.” When asked for an offer of proof as
to the relevance of Kruger’s testimony, he could not
make one.
[10]Appellant

now asserts that Kruger’s testimony
would show Moore’s state of mind or emotion (Evid.
Code, § 1250) and show implied approval of the fees
(Evid.Code, § 1261). The argument conflates Moore’s
intent, plan, motive and feelings with Moore’s mental
capacity to enter into the attorney-client contract. It is
not an issue. Before trial, the parties agreed that
appellant had a good faith belief that an
attorney-client relationship existed and asked the
trial court to determine the reasonableness of the fees
and medical expert expenses.

[11]Appellant

also now argues that Moore’s statements
to Kruger are admissible under Evidence Code section
1261, subdivision (a) which provides in pertinent part:
“Evidence of a statement is not made inadmissible by
the hearsay rule when offered in an action upon a
claim or demand against the estate of the declarant if
the statement was made upon the personal knowledge
of the declarant at the time when the matter had been
recently perceived by him and while his recollection
was clear.” Appellant made no offer of proof that

Appendix 038

Moore verbally approved the fees or that his
statement was trustworthy, i.e., made when the
matter has been recently perceived by Moore “and
while his recollection was clear.” (See Estate of Luke
(1987) 194 Cal.App.3d 1006, 1017, 240 Cal.Rptr. 84.)

Findings Concerning Moore’s Intent
[12]Appellant

argues that the probate court should
have made findings concerning Moore’s wishes and
objectives in hiring appellant. But such an inquiry is
irrelevant. The focus of the hearing was whether the
fees and expenses were reasonable and benefited the
trust. (Donahue, supra, 182 Cal.App.4th at p. 275, 105
Cal.Rptr.3d 723.) The wishes or objectives of Moore,
who suffered from dementia, did not trump
appellant’s duty to prudently spend trust money and
avoid conflicts of interest with the trust.
*1109 Multiple Billing

Where the trustee is an attorney, the general rule is
that the trustee can receive compensation either for
work as a trustee, or for work performing legal
services for the trustee, but not both. (Hartog &
Kovar, **187 Matthew Bender Practice Guide: Cal.
Trust Litigation (LexisNexis 2015) § 14.25[1][a], p.
14-32.) Section 15687, subdivision (a) prohibits a
trustee who is an attorney from receiving
compensation for both trustee services and legal
services unless the trustee obtains advance approval
from the court. (See Ross & Cohen, Cal. Practice
Guide; Probate (The Rutter Group 2014) ¶ 1:26.2, p.

Appendix 039

1-19. (rev. # 1 2014).) Appellant did not obtain such
approval.

Block Billing
Appellant billed at the same hourly rate regardless of
whether it was for attorney services, a trustee
activity, or tending to Moore’s personal matters (i.e.,
scheduling medical appointments, caretaker services,
driving lessons, etc.). The probate court imposed a five
percent surcharge because the block billing failed to
identify what services were provided and the time for
each task.
[13]Appellant

argues that he was denied due process
because he did not know until the last day of trial that
the block billing would be a basis for the surcharge
order. Appellant, however, did not object on due
process grounds and is precluded from raising the
issue on appeal. (See e.g., People v. Benson (1990) 52
Cal.3d 754, 788, 276 Cal.Rptr. 827, 802 P.2d 330
[defendant waived due process challenge by failing to
make constitutional objection at trial].) Any other rule
would permit a party to play fast and loose with the
administration of justice by deliberately standing by
without making an objection of which he is aware. (In
re Aaron B. (1996) 46 Cal.App.4th 843, 846, 54
Cal.Rptr.2d 27.)

[14]On

the merits, appellant was on notice that his
billings were a problem. Before trial, objections were
raised by the receiver, the court auditor, and
respondent. In a 2011 e-mail, the receiver stated that
he would not approve “billings with just hours

Appendix 040

appearing.... [¶] Frankly, I don’t know how you are
able to segregate the work you are doing to represent
Mr. Moore individually and the Moore Trust.” In a
second e-mail, the receiver told appellant to be “very
judicious in billing your time” and “to break out what
is spent actually lawyering for the trust (actual legal
work); what is spent being trustee (investments, bill
paying, etc.) and what is spent on personal services
for Mr. Moore (i.e., driving him to the doctor, bank,
and other non-legal services).”
*1110 The probate court, in a pre-hearing order, found
that the accounting was disorganized and “does not
come close to complying with accepted statutory
format....” It asked to see the time sheets. Appellant
argued that “my services, my billing statements, when
I did everything, that’s private....” Appellant was
afforded a three- day evidentiary hearing but failed to
clarify what services were provided and the time
spent on each task. (See Hartog & Kovar, Matthew
Bender Practice Guide: Cal. Trust Litigation, supra, §
14.04[4], p. 14-10 [trustee’s billing should include a
detailed description of the tasks performed, an
explanation of how the tasks benefited the trust, and
time sheets and logs].)

Request for Reconsideration
[15]Denying

appellant’s motion for “new trial,” the
probate court found that appellant had notice of the
substance of the proceeding well in advance of the
hearing. “Given the nature of the testimony and
evidence before the court, it was impossible, because
of the lack of presentation of detailed billing records,

Appendix 041

to precisely excise inappropriate time. The best that
could be done was to construe a framework. This was
done by counsel in closing argument, and the court
found this to be an acceptable methodology. The
statute **188 requires that the objection [be] made at
trial, which it was not.”
Appellant argues that the surcharge is tantamount to
a constructive fraud judgment and violates his due
process rights because he did not know he had the
burden of proving Moore’s mental capacity to consent
to the fees. But all of that was spelled out in the
pre-hearing order. The court ruled that appellant’s
fees ($148,015.11) were disapproved absent a showing
that the services benefited Moore and a showing that
Moore had the capacity to contract for and approve
the fees when the services were rendered. The pretrial
order states: “The accounting will be set for
evidentiary hearing on the aforementioned issues and
to surcharge [appellant] for any sums which Mr.
Moore’s estate has been unnecessarily charged,
improperly charged or overcharged.” Appellant was
provided a three-day hearing. Like any trustee, the
burden was on appellant to itemize his fees and
expenses and show they were reasonable.

Standing
[16]Appellant

claims that Helgren lacked standing to
object to the accounting and it was a “procedural
error” to allow Helgren to participate in the trial. As a
remainder beneficiary, appellant was an interested
party and had the right to object to the accounting.
(See §§ 24, subd. (c); 17200, subd. (a); Estate of

Appendix 042

Giraldin

(2012) 55 Cal.4th
Cal.Rptr.3d 205, 290 P.3d 199.)

1058,

1076,

150

*1111 Conclusion
Appellant was repeatedly warned that he had a
conflict of interest acting as trustee and as the
attorney for a mentally impaired client in a
conservatorship proceeding. Appellant had never
served as a trustee or been involved in a
conservatorship before but perceived it as a license to
zealously fight for Moore no matter what the cost. The
probate court remarked that conservatorship
proceedings are “not about fighting. It’s about doing
the right thing. And [appellant] lost sight of doing the
right thing....”
[17]At

the evidentiary hearing, appellant complained
that “the Court, and the parties seem[ ] to be focused
on just the reasonableness of the fees, but you don’t
even get to.... [Y]ou can’t second guess my fees now,
he [i.e., Moore] approved of them, and he didn’t
complain....” Appellant makes the same argument on
appeal. Trustee accountings are not a game of hide
and seek. Section 17200, subdivision (b)(9) requires
that probate courts review the reasonableness of a
trustee’s compensation. When “presented with a
section 17200 petition to settle an account, ‘the
probate court has a duty imposed by law to inquire
into the prudence of the trustee’s administration.’
[Citations.]” (Schwartz v. Labow (2008) 164
Cal.App.4th 417, 427, 78 Cal.Rptr.3d 838.)
Appellant’s

remaining

arguments

Appendix 043

have

been

considered and merit no further discussion.
The judgment (surcharge order) is affirmed.
Respondent is awarded costs on appeal. The clerk of
the court is ordered to transmit a copy of this opinion
to the California State Bar. Whether appellant should
be disciplined is addressed to the State Bar and we
express no opinion thereon.
We concur:
GILBERT, P.J.
**189 LUI, J.*
All Citations
240 Cal.App.4th 1101, 193 Cal.Rptr.3d 179, 15 Cal.
Daily Op. Serv. 10,859, 2015 Daily Journal D.A.R.
11,051
Footnotes
1

All statutory references are to the Probate Code
unless otherwise stated.

2

At oral argument, appellant stated that as an
attorney, he was better suited than the
treating physicians to opine on Moore’s mental
capacity.

3

Appellant, in his reply brief, contends that
the trial court erred in denying the creditor’s
claim of Edward Hyman, Ph.D. for $24,704.16

Appendix 044

in additional fees. The issue was not raised
in appellant’s opening brief and is deemed
forfeited. (Peninsula Guardians, Inc. v.
Peninsula Health Care Dist. (2008) 168 Cal.
App.4th 75, 86, fn. 6, 85 Cal.Rptr.3d 253; SCI

California Funeral Services, Inc. v. Five
Bridges Foundation (2012) 203 Cal.App.4th
549, 573, 137 Cal.Rptr.3d 693.)
*

Associate Justice, Court of Appeal. Second
District, Division One, assigned by the Chief
Justice.

Appendix 045

1st AMENDMENT TO THE UNITED
STATES CONSTITUTION,
FREE SPEECH CLAUSE
(Ratified 1791)
14th AMENDMENT TO THE UNITED
STATES CONSTITUTION, SECTIONS 1 & 5
Section 1. All persons born or naturalized
in the United States, and subject to the
jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No
State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of
the United States; nor shall any State deprive
any person of life, liberty, or property, without
due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
Section 5. The Congress shall have power
to enforce, by appropriate legislation, the
provisions of this article.
(Ratified 1868)
42 U.S.C. §1983.
CIVIL ACTION FOR DEPRIVATION OF RIGHTS
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen of
the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by the
Constitution and laws, shall be liable to the party
injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any
action brought against a judicial officer for an act
I

Appendix 046

or omission taken in such officer’s judicial
capacity, injunctive relief shall not be granted
unless a declaratory decree was violated or
declaratory relief was unavailable. For purposes
of this section, any Act of Congress applicable
exclusively to the District of Columbia shall be
considered to be a statute of the District of
Columbia.
(Enacted 1871, Amended in 1979 and 1996).
42 U.S.C. §1985
CONSPIRACY TO INTERFERE
WITH CIVIL RIGHTS
Part (2) Obstructing justice; intimidating party,
witness or juror
If two or more persons in any State or
Territory conspire to deter, by force, intimidation,
or threat, any party or witness in any court of the
United States from attending such court, or from
testifying to any matter pending therein, freely,
fully, and truthfully, or to injure such party or
witness in his person or property on account of his
having so attended or testified, or to influence the
verdict, presentment, or indictment or any grand
or petit juror in any such court, or to injure such
juror in his person or property on account of any
verdict, presentment, or indictment lawfully
assented to by him, or of his being or having been
such juror; or if two or more persons conspire for
the purpose of impeding, hindering, obstructing,
or defeating, in any manner, the due course of
justice in any State or Territory, with intent to
deny to any citizen the equal protection of the
laws, or to injure him or his property for lawfully
enforcing, or attempting to enforce, the right of
II

Appendix 047

any person, or class of persons, to the equal
protection of the laws.
(Enacted 1871).
42 U.S.C. §1985
CONSPIRACY TO INTERFERE WITH
CIVIL RIGHTS
Part (3) Depriving persons of rights or privileges
If two or more persons in any State or
Territory conspire or go in disguise on the
highway or on the premises of another, for the
purpose of depriving, either directly or indirectly,
any person or class of persons of the equal
protection of the laws, or of equal privileges and
immunities under the laws; or for the purpose of
preventing or hindering the constituted
authorities of any State or Territory from giving
or securing to all persons within such State or
Territory the equal protection of the laws; or if
two or more persons conspire to prevent by force,
intimidation, or threat, any citizen who is
lawfully entitled to vote, from giving his support
or advocacy in a legal manner, toward or in favor
of the election of any lawfully qualified person as
an elector for President or Vice President, or as a
Member of Congress of the United States; or to
injure any citizen in person or property on
account of such support or advocacy; in any case
of conspiracy set forth in this section, if one or
more persons engaged therein do, or cause to be
done, any act in furtherance of the object of such
conspiracy, whereby another is injured in his
person or property, or deprived of having and
exercising any right or privilege of a citizen of the
United States, the party so injured or deprived
III

Appendix 048

may have an action for the recovery of damages
occasioned by such injury or deprivation, against
any one or more of the conspirators.
(Enacted 1871).
§504 OF THE REHABILITATION ACT OF 1973
29 U.S.C. §794(a)(b)(1)(4)
Nondiscrimination Under Federal Grants And
Programs
(a) Promulgation of rules and regulations
No otherwise qualified individual with a
disability in the United States, as defined in
section 705(20) of this title, shall, solely by reason
or her or his disability, be excluded from the
participation in, be denied the benefits of, or be
subjected to discrimination under any program or
activity receiving Federal financial assistance or
under any program or activity conducted by any
Executive agency or by the United States Postal
Service. The head of each such agency shall
promulgate such regulations as may be necessary
to carry out the amendments to this section made
by the Rehabilitation, Comprehensive Services,
and Developmental Disabilities Act of 1978.
Copies of any proposed regulation shall be
submitted to appropriate authorizing committees
of the Congress, and such regulation may take
effect no earlier than the thirtieth day after the
date on which such regulation is so submitted to
such committees.
(b) “Program or activity” defined
For the purposes of this section, the term “program
or activity” means all of the operations of(1)(A) a department, agency, special
purpose district, or other instrumentality of a
IV

Appendix 049

State or of a local government; or
(B) the entity of such State or local
government that distributes such assistance
and each such department or agency (and
each other State or local government entity)
to which the assistance is extended, in the
case of assistance to a State or local
government;
(4) any other entity which is established
by two or more of the entities described in
paragraph (1), (2), or (3); any part of which
is extended Federal financial assistance.
(Enacted 1973, Amended in 1992)
§504 OF THE REHABILITATION ACT OF 1973
AMENDED 1978
29 U.S.C. §794a (a)(2)
Remedies
(a)(2) The remedies, procedures, and
rights set forth in Title VI of the Civil Rights Act
of 1964 (42 U.S.C. 2000d et seq.) (and in
subsection (e)(3) of section 706 of such Act (42
U.S.C. 2000e-5), applied to claims of
discrimination in compensation) shall be
available to any person aggrieved by any act or
failure to act by any recipient of Federal
assistance or Federal provider of such assistance
under section 794 of this title.
(Enacted 1978; Amended 2009)
AMERICANS WITH DISABILITIES ACT
TITLE II
42 U.S.C. §12132
Discrimination
Subject to the provisions of this subchapter,
V

Appendix 050

no qualified individual with a disability shall, by
reason of such disability, be excluded from
participation in or be denied the benefits of the
services, programs, or activities of a public entity,
or be subjected to discrimination by any such
entity.
(Dated July 26, 1990, but enactment not
effective until 18 months thereafter, in 1991).
AMERICANS WITH DISABILITIES ACT
TITLE II
42 U.S.C. §12133
Enforcement
The remedies, procedures, and rights set forth
in section 794a of Title 29 shall be the remedies,
procedures, and rights this subchapter provides to
any person alleging discrimination on the basis of
disability in violation of section 12132 of this title.
(Dated July 26, 1990, but enactment not
effective until 18 months thereafter, in 1991)
AMERICANS WITH DISABILITIES ACT
42 U.S.C. §12203
Prohibition of Retaliation And Acts That
Coerce, Intimidate, Threaten, Or Interfere
With
(a)
RETALIATION
No person shall discriminate against any
individual because such individual has opposed
any act or practice made unlawful by this
chapter or because such individual made a
charge, testified, assisted, or participated in any
manner in an investigation, proceeding, or
hearing under this chapter.
(b)
INTERFERENCE, COERCION, OR
VI

Appendix 051

INTIMIDATION
It shall be unlawful to coerce, intimidate,
threaten, or interfere with any individual in the
exercise or enjoyment of, or on account of his or
her having exercised or enjoyed, or on account of
his or her having aided or encouraged any other
individual in the exercise or enjoyment of, any
right granted or protected by this chapter.
(c)
REMEDIES AND PROCEDURES
The remedies and procedures available
under sections 12117, 12133, and 12188 of this
title shall be available to aggrieved persons for
violations of subsections (a) and (b), with respect
to subchapter I, subchapter II and subchapter
III, respectively.
(Pub. L. 101-336, title V, §503, July 26, 1990,
104 Stat. 370.)
§504 OF THE REHABILITIATION ACT OF 1973
AMENDED 1978
28 CFR §42.107(e)
(also 34 CFR §100.7(e))
Intimidatory or retaliatory acts prohibited
(Originally In Implementation of Title VI of
the Civil Rights Act of 1964; Subsequently
Applied to §504 of the Rehabilitation Act)
No recipient or other person shall intimidate,
threaten, coerce, or discriminate against any
individual for the purpose of interfering with any
right or privilege secured by section 601 of this
Act or this subpart, or because he has made a
complaint, testified, assisted, or participated in
any manner in an investigation, proceeding, or
hearing under this subpart. The identity of
complainants shall be kept confidential except to
VII

Appendix 052

the extent necessary to carry out the purpose of
this subpart, including the conduct of any
investigation, hearing, or judicial proceeding
arising thereunder.
(28 CFR §42.107(e) was promulgated on July
29, 1966 by the U.S. Justice Department and
amended on July 5, 1973. 34 CFR §100.7(e) was
promulgated by the U.S. Department of
Education in 1980. Both of these regulations
were adopted by Congressional action in 1978
for purposes of §504 of the Rehabilitation Act, 29
U.S.C. §§794, 794a. See also 28 CFR §42.530
for).
§504 OF THE REHABILITATION ACT OF 1973
28 CFR §42.503 (b)(1)(2)(3)(5)(6)(d)(g)
Discrimination Prohibited

(b) Discriminatory actions prohibited

(1) A recipient may not discriminate on
the basis of handicap in the following ways
directly or through contractual, licensing, or
other arrangements under any program or
activity receiving Federal financial assistance:
(i)
Deny a qualified
handicapped person the opportunity
accorded others to participate in the
program or activity receiving Federal
financial assistance;
(ii)
Deny a qualified handicapped
person an equal opportunity to achieve
the same benefits that others achieve in
the program or activity receiving Federal
financial assistance;
(iii) Provide different or separate
assistance to handicapped persons or
VIII

Appendix 053

classes of handicapped persons than is
provided to others unless such action is
necessary to provide qualified
handicapped persons or classes of
handicapped persons with assistance as
effective as that provided to others;
(iv)
Deny a qualified
handicapped person an equal
opportunity to participate in the
program or activity by providing
services to the program;
(v)
Deny a qualified handicapped
person an opportunity to participate as a
member of a planning or advisory body;
(vi)
Permit the participation in
the program or activity of agencies,
organizations or persons which
discriminate against the handicapped
beneficiaries in the recipient’s program;
(vii) Intimidate or retaliate
against any individual, whether
handicapped or not, for purpose of
interfering with any right secured by
section 504 or this subpart.
(2) A recipient may not deny a qualified
handicapped person the opportunity to
participate in any program or activity receiving
Federal financial assistance on the ground that
other specialized aid, benefits, or services for
handicapped persons are available.
(3) A recipient may not, directly or through
contractual, licensing, or other arrangements,
utilize criteria or methods of administration that
either purposely or in effect discriminate on the
basis of handicap, defeat or substantially impair
IX

Appendix 054

accomplishment of the objectives of the recipient’s
program or activity with respect to handicapped
persons, or perpetuate the discrimination of
another recipient if both recipients are subject to
common administrative control or are agencies of
the same State.
(5) A recipient is prohibited from
discriminating on the basis of handicap in aid,
benefits, or services operating without Federal
financial assistance where such action would
discriminate against the handicapped
beneficiaries or participants in any program or
activity of the recipient receiving Federal
financial assistance.
(6) Any entity not otherwise receiving
Federal financial assistance but using a facility
provided with the aid of Federal financial
assistance after the effective date of this
subpart is prohibited from discriminating on the
basis of handicap.
(d) Recipients shall administer programs
or activities in the most integrated setting
appropriate to the needs of qualified
handicapped persons.
(g) The enumeration of specific forms of
prohibited discrimination in this subpart is
not exhaustive but only illustrative.
(Promulgated by the U.S. Justice Department on
June 3, 1980)
AMERICANS WITH DISABILITIES ACT
TITLE II
28 CFR §35.130
General prohibitions against discrimination
(a) No qualified individual with a disability
X

Appendix 055

shall, on the basis of disability, be excluded from
participation in or be denied the benefits of the
services, programs, or activities of a public entity,
or be subjected to discrimination by any public
entity.
(b)
(1) A public entity, in providing any aid, benefit,
or service, may not, directly or through contractual,
licensing, or other arrangements, on the basis of
disability –
(i) Deny a qualified individual
with a disability the opportunity to
participate in or benefit from the aid,
benefit, or service;
(ii) Afford a qualified individual
with a disability an opportunity to
participate in or benefit from the aid,
benefit, or service that is not equal to
that afforded to others;
(iii) Provide a qualified individual
with a disability with an aid, benefit, or
service that is not as effective in
affording equal opportunity to obtain the
same result, to gain the same benefit, or
to reach the same level of achievement
as that provided to others;
(iv) Provide different or separate
aids, benefits, or services to individuals
with disabilities or to any class of
individuals with disabilities than is
provided to others unless such action is
necessary to provide qualified
individuals with disabilities with aids,
benefits, or services that are as
effective as those provided to others;
XI

Appendix 056

(v) Aid or perpetuate discrimination
against a qualified individual with a
disability by providing significant
assistance to an agency, organization, or
person that discriminates on the basis of
disability in providing any aid, benefit,
or service to beneficiaries of the public
entity’s program;
(vi) Deny a qualified individual
with a disability the opportunity to
participate as a member of planning
or advisory boards;
(vii) Otherwise limit a qualified
individual with a disability in the
enjoyment of any right, privilege,
advantage, or opportunity enjoyed by
others receiving the aid, benefit, or
service.
(2) A public entity may not deny a
qualified individual with a disability the
opportunity to participate in services,
programs, or activities that are not separate
or different, despite the existence of
permissibly separate or different programs or
activities.
(3) A public entity may not, directly or
through contractual or other arrangements,
utilize criteria or methods of administration(i) That have the effect of subjecting
qualified individuals with disabilities to
discrimination on the basis of disability;
(ii) That have the purpose or effect of
defeating or substantially impairing
accomplishment of the objectives of the public
entity’s program with respect to individuals
XII

Appendix 057

with disabilities; or
(iii) That perpetuate the
discrimination of another public entity if both
public entities are subject to common
administrative control or are agencies of the
same State.
(6) A public entity may not administer
a licensing or certification program in a
manner that subjects qualified individuals
with disabilities to discrimination on the
basis of disability, nor may a public entity
establish requirements for the programs or
activities of licensees or certified entities that
subject qualified individuals with disabilities
to discrimination on the basis of disability.
The programs or activities of entities that are
licensed or certified by a public entity are
not, themselves, covered by this part.
(7)
(i) A public entity shall make reasonable
modifications in policies, practices, or
procedures when the modifications are
necessary to avoid discrimination on the basis
of disability, unless the public entity can
demonstrate that making the modifications
would fundamentally alter the nature of the
service, program, or activity.
(ii) A public entity is not required to
provide a reasonable modification to an
individual who meets the definition of
“disability” solely under the “regarded as”
prong of the definition of disability at
§35.108(a)(1)(iii).
(8) A public entity shall not impose or apply
eligibility criteria that screen out or tend to
XIII

Appendix 058

screen out an individual with a disability or any
class of individuals with disabilities from fully
and equally enjoying any service, program, or
activity, unless such criteria can be shown to be
necessary for the provision of the service,
program, or activity being offered.
(d) A public entity shall administer
services, programs, and activities in the most
integrated setting appropriate to the needs of
qualified individuals with disabilities.
(g) A public entity shall not exclude or
otherwise deny equal services, programs, or
activities to an individual or entity because of
the known disability of an individual with
whom the individual or entity is known to
have a relationship or association.
(h) A public entity may impose legitimate
safety requirements necessary for the safe
operation of its services, programs, or activities.
However, the public entity must ensure that its
safety requirements are based on actual risks,
not on mere speculation, stereotypes, or
generalizations about individuals with
disabilities.
(Promulgated by the U.S. Justice Department
on July 26, 1991, and amended on September 15,
2010 and August 11, 2016)
AMERICANS WITH DISABILITIES ACT
TITLE II
28 CFR §35.134
Retaliation or coercion
(a) No private or public entity shall discriminate
against any individual because that individual has
opposed any act or practice made unlawful by this
XIV

Appendix 059

part, or because that individual made a charge,
testified, assisted, or participated in any manner in an
investigation, proceeding, or hearing under the Act or
this part.
(b) No private or public entity shall coerce,
intimidate, threaten, or interfere with any
individual in the exercise or enjoyment of, or on
account of his or her having exercised or enjoyed,
or on account of his or her having aided or
encouraged any other individual in the exercise
or enjoyment of, any right granted or protected
by the Act or this part.
(Promulgated by the U.S. Justice Department on
July 26, 1991).

XV

Appendix 060

